<html>
<title> - EMPLOYEE MISCONDUCT: HOW CAN FEMA IMPROVE THE INTEGRITY OF ITS WORK FORCE?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







  EMPLOYEE MISCONDUCT: HOW CAN FEMA IMPROVE THE INTEGRITY OF ITS WORK 
                                 FORCE?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2017

                               __________

                           Serial No. 115-25

                               __________

       Printed for the use of the Committee on Homeland Security
                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-979 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
































                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
                 Steven S. Giaier, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          J. Luis Correa, California
John Ratcliffe, Texas                Kathleen M. Rice, New York
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. David Grant, Acting Deputy Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Chris P. Currie, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Jacqueline Simon, Director of Policy, American Federation of 
  Government Employees:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

 
  EMPLOYEE MISCONDUCT: HOW CAN FEMA IMPROVE THE INTEGRITY OF ITS WORK 
                                 FORCE?

                              ----------                              


                        Thursday, July 27, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Higgins, Estes, Correa, 
Rice, and Barragan.
    Also present: Representative Jackson Lee.
    Mr. Perry. The Committee on Homeland Security, Subcommittee 
on Oversight and Management Efficiency will come to order. The 
purpose of this hearing is to examine findings of a recent 
Government Accountability Office or GAO report on employee 
misconduct at the Federal Emergency Management Agency.
    Before we begin, the Chair would like to welcome our new 
Member, the gentleman from Kansas, Mr. Ron Estes, to the 
subcommittee. He brings a wealth of experience from the private 
sector and as Kansas State treasurer that will be invaluable as 
the subcommittee examines DHS operations.
    The Chair recognizes himself for an opening statement. The 
Federal Emergency Management Agency or FEMA provides Americans 
invaluable support during times of great need. FEMA leads 
Federal efforts to prepare for, respond to, and recover from 
disasters. To accomplish this enormous task FEMA relies on a 
work force of over 22,000 dedicated men and women, which 
includes both permanent and disaster-related temporary 
employees.
    Often FEMA employees are among the first responders helping 
lift up communities devastated by loss and destruction. The 
American people entrust FEMA's employees with this vital 
mission which is why instances of employee misconduct are all 
the more corrosive and concerning.
    A year-long review by the Government Accountability Office 
uncovered troubling instances of employee misconduct and found 
several areas where FEMA must improve its management of 
misconduct matters.
    GAO analyzed data from January 2014 through September 2016 
and identified almost 600 misconduct complaints. The most 
common alleged misconduct dealt with issues of integrity and 
ethics.
    Examples include a FEMA employee allegedly taking illegal 
gifts from contractors, a terminated FEMA employee stealing a 
FEMA-owned laptop, and allegations of a supervisor bullying and 
cursing at employees. A separate GAO review in 2016 found that 
four FEMA employees being investigated for personnel matters 
were placed on a paid administrative leave for a year or more 
at a cost to taxpayers of over $600,000.
    In addition, FEMA failed to properly investigate several 
allegations referred to--correction, referred by the DHS Office 
of Inspector General leaving them to languish without 
investigation or resolution.
    GAO also criticized FEMA for its poor data tracking of 
misconduct cases which limited its ability to analyze trends in 
employee misconduct over time.
    GAO concluded that FEMA's management of the misconduct 
process needs sustained improvement despite hundreds--
correction. Despite hundreds of misconduct allegations against 
FEMA's work force, FEMA lacks documented misconduct policies 
and procedures for its surge capacity force and has not 
outlined disciplinary actions or the appeals process for its 
reservist work force. Together, these employees total over half 
of FEMA's total work force.
    Additionally, FEMA does not instruct its work force on the 
range of offenses and penalties that they might face if 
misconduct occurs.
    Everybody has got to know what the, you know, what the 
recipe is. You know, what the rules of the game are, right?
    Although many agencies utilize a table of offenses and 
penalties to guide disciplinary actions which would inform 
everybody, FEMA uses a comparators spreadsheet that is only 
shared on a case-by-case basis with supervisors. This 
spreadsheet replaced a previously-used table that had not been 
updated since 1981. That is a long time, man.
    Such an approach most certainly leads to inconsistencies in 
how discipline is administered across FEMA's regions. 
Legislation put forward by subcommittee member Clay Higgins, 
H.R. 2131, the DHS FIRM Act, would require DHS components, 
including FEMA, to utilize a table of offenses and penalties to 
improve consistency with discipline across DHS.
    GAO's report provides FEMA's new leadership an opportunity 
to make important changes that will improve the integrity of 
FEMA's work force. I am encouraged by FEMA's concurrence with 
the GAO's six recommendations and its plans to refocus on 
improving the agency's management.
    Americans from all corners of the Nation simply rely on 
FEMA during their darkest hours. We need the men and women of 
FEMA focused on that critical mission of lifting up our 
citizens facing disheartening times.
    I look forward to hearing how FEMA will improve on the 
deficiencies laid out in GAO's report and reaffirm its 
commitment to the integrity of its work force.
    [The statement of Mr. Perry follows:]
                   Statement of Chairman Scott Perry
                             July 27, 2017
    The Federal Emergency Management Agency (FEMA) provides Americans 
invaluable support during times of great need. FEMA leads Federal 
efforts to prepare for, respond to, and recover from disasters. To 
accomplish this enormous task, FEMA relies on a work force of over 
22,000 dedicated men and women, which includes both permanent and 
disaster-related temporary employees.
    Often, FEMA employees are among the first responders helping lift 
up communities devastated by loss and destruction. The American people 
entrust FEMA's employees with this vital mission, which is why 
instances of employee misconduct are all the more corrosive. A year-
long review by the Government Accountability Office (GAO) uncovered 
troubling instances of employee misconduct and found several areas 
where FEMA must improve its management of misconduct matters.
    GAO analyzed data from January 2014 through September 2016 and 
identified almost 600 misconduct complaints. The most common alleged 
misconduct dealt with issues of integrity and ethics. Examples included 
a FEMA employee allegedly taking illegal gifts from contractors, a 
terminated FEMA employee stealing a FEMA-owned laptop, and allegations 
of a supervisor bullying and cursing at employees.
    A separate GAO review in 2016 found that four FEMA employees being 
investigated for personnel matters were placed on paid administrative 
leave for a year or more at a cost to taxpayers of over $600,000. In 
addition, FEMA failed to properly investigate several allegations 
referred by the DHS Office of Inspector General leaving them to 
languish without investigation or resolution. GAO also criticized FEMA 
for its poor data tracking of misconduct cases, which limited its 
ability to analyze trends in employee misconduct over time.
    GAO concluded that FEMA's management of the misconduct process 
needs sustained improvement. Despite hundreds of misconduct allegations 
against FEMA's work force, FEMA lacks documented misconduct policies 
and procedures for its Surge Capacity Force and has not outlined 
disciplinary actions or the appeals process for its Reservist work 
force. Together, these employees total over half of FEMA's total work 
force.
    Additionally, FEMA does not instruct its work force on the range of 
offenses and penalties that they might face if misconduct occurs. 
Although many agencies utilize a table of offenses and penalties to 
guide disciplinary actions, FEMA uses a ``comparators'' spreadsheet 
that is only shared on a case-by-case basis with supervisors. This 
spreadsheet replaced a previously-used table that had not been updated 
since 1981. Such an approach most certainly leads to inconsistencies in 
how discipline is administered across FEMA's regions. Legislation put 
forward by subcommittee Member Clay Higgins, H.R. 2131--the DHS FIRM 
Act, would require DHS components, including FEMA, to utilize a table 
of offenses and penalties to improve consistency with discipline across 
DHS.
    GAO's report provides FEMA's new leadership an opportunity to make 
important changes that will improve the integrity of FEMA's work force. 
I am encouraged by FEMA's concurrence with GAO's six recommendations 
and its plans to refocus on improving the agency's management. 
Americans from all corners of the Nation rely on FEMA during their 
darkest hours. We need the men and women of FEMA focused on that 
critical mission of lifting up our citizens facing disheartening times. 
I look forward to hearing how FEMA will improve on the deficiencies 
laid out in GAO's report and reaffirm its commitment to the integrity 
of its work force.

    Mr. Perry. The Chair now recognizes the Ranking Minority 
Member of the subcommittee, the gentleman from California, my 
friend Mr. Lou Correa for his opening statement.
    Mr. Correa. Thank you, Chairman Perry and thank you for 
holding this most important hearing on a very important topic. 
The FEMA work force has a very important and critical 
responsibility and that is to support our citizens and first 
responders as they face some of the most crippling natural 
disasters this country has ever seen.
    They assist first responders and in many cases are the 
first responders. FEMA employees risk their lives for the good 
of the country as a whole and for this we thank you. The FEMA 
work force exemplifies a DHS mission statement which is, ``With 
honor and integrity we will safeguard the American people, our 
homeland, and our values.''
    At the Aspen Institute last week, Secretary Kelly commended 
the patriotism, dedication, and focus of the DHS work force as 
they protect the Nation even in the face of very dangerous 
missions.
    Today's hearing starts from a GAO report released last week 
that concluded that FEMA should improve the manner in which it 
documents and communicates policies related to employee 
conduct, a task that is administrative in nature. But 
witnesses, I would say, is this really the conclusion?
    Employees, whether full-time, part-time, or temporary, 
should know and understand an agency's policies regarding 
misconduct, as well as the availability of their rights to 
challenge or appeal adverse decisions.
    While misconduct must be addressed and not tolerated 
wherever it occurs in the work force, does the GAO report 
actually say that FEMA has an integrity or misconduct problem 
that requires improvement? Again, we must never tolerate such 
behavior. In fact, I believe the report makes it clear that 
allegations of misconduct made against FEMA employees are less 
than 2 percent of the entire FEMA work force. Is that the case?
    Additionally, one of the FEMA employee categories 
highlighted in the report, surge capacity force members, has 
recorded zero cases of misconduct according to FEMA officials. 
The second class of FEMA employees discussed in the report, 
reservists, are at-will and intermittent employees.
    The second class of employees are not hired under Title 5 
and do not receive the same protections of a collectively-
bargained contract such as a right to appeal adverse actions, 
including suspensions or terminations. Again I ask, what is the 
scope of the misconduct?
    Also is morale an issue for FEMA? Measuring morale, FEMA is 
ranked 284th out of 305 agency subcomponents, which means that 
the agency index scores fall well below average. The FEMA work 
force expressed dissatisfaction with agency leadership, their 
fairness of performance reviews, and opportunities for 
professional development.
    Research shows that effective leadership is the key driver 
of employee satisfaction. In order to improve employee morale, 
FEMA must provide robust training to new supervisors, motivate 
and engage employees, and recognize, of course, high 
performers.
    Very proud that this Congress and this committee have 
passed legislation to focus on improving morale and employee 
engagement at the Department. Today I look forward to 
discussing with the witnesses today how this committee can 
continue to engage 22,000 full-time, part-time, and volunteer 
FEMA personnel to help improve morale.
    I would also like to again thank the work force for your 
contributions. You have not been ignored. To the witnesses I 
would ask what does your data show?
    FEMA has been around since I believe 1979. What is the 
history of misconduct? Are there any patterns? Compared to who? 
To other agencies? To FEMA? We can always do better. What does 
this study tell us?
    Finally, Mr. Chair, I yield back to you.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                             July 27, 2017
    The Federal Emergency Management Agency work force has a critical 
responsibility--to support citizens and first responders as they face 
some of the most crippling natural disasters this country has seen.
    FEMA employees frequently risk their lives for the good of the 
country at a moment's notice.
    To me, the FEMA work force exemplifies and personifies the very 
basis for the newly-crafted DHS mission statement--With honor and 
integrity. We will safeguard the American people, our homeland, and our 
values.
    Speaking at the Aspen Institute just last week, Secretary John 
Kelly commended the patriotism, dedication, and focus of the DHS work 
force as they protect the Nation, even in the face of a sometimes 
dangerous mission.
    Therefore, I am confused and concerned with the focus of today's 
hearing, as evidenced by the hearing title insinuating the FEMA work 
force has a wide-spread integrity problem.
    Today's hearing stems from a GAO report released last week that 
concluded FEMA should improve the manner in which it documents and 
communicates policies related to employee conduct, a task that is 
administrative in nature.
    This recommendation by GAO is certainly not controversial or 
problematic.
    Employees, whether full-time, part-time, or temporary, should know 
and understand an agency's policies regarding misconduct as well as the 
availability of rights to challenge or appeal an adverse decision.
    While misconduct must be addressed wherever it occurs in the work 
force, nowhere in its report does GAO assert that FEMA has an integrity 
or misconduct problem that requires improvement.
    In fact, the report makes clear that allegations of misconduct made 
against FEMA employees reflects less than 2% of the entire FEMA work 
force.
    Additionally, one of the FEMA employee categories highlighted in 
the report, Surge Capacity Force members, has recorded ZERO instances 
of misconduct according to FEMA Office of the Chief Security Officer 
officials.
    The second class of FEMA employees highlighted in the report, 
Reservists, are at-will, intermittent employees.
    These employees are not hired under Title 5 and do not receive the 
same protections of a union contract and the right to appeal adverse 
actions such as suspensions or terminations, which undoubtedly impacts 
data related to cases of employee misconduct.

    Mr. Perry. The Chair thanks the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 27, 2017
    I want to begin my remarks by expressing my appreciation to the men 
and women of FEMA for the incredible work they do on behalf of our 
Nation. Secretary Kelly has stated that the men and women of DHS, which 
includes FEMA, are exceptional and dedicated professionals.
    Unfortunately, there are some--including the President of the 
United States--that fail appreciate the service and commitment of the 
Federal employee. President Trump has made it clear through budget cuts 
and hiring freezes that he does not understand the critically important 
work of FEMA and other agencies across our Government.
    Today, my colleagues across the aisle are perpetuating this lack of 
understanding by asserting that the FEMA work force has an integrity 
problem, ostensibly based on a recent GAO report. However, my reading 
of the report does not support such an inference.
    Instead, the report states that FEMA needs to do a better job of 
documenting and communicating policies related to how misconduct is 
handled at FEMA. I certainly agree with GAO's conclusion that clearly-
documented policies and procedures for all FEMA workers are necessary, 
and I look forward to the agency carrying out GAO's recommendations. I 
also hope to engage with GAO today on their findings.
    I also expect to confirm that the overwhelming majority of FEMA 
employees are dedicated public servants who carry out the agency's 
mission with integrity, showing up at locations across the country with 
little notice in some of the most stressful and dangerous environments 
possible. Supporting the work force and focusing on improving morale 
should be a top priority of this committee.
    That is why this Congress I have introduced legislation, co-
sponsored by every Democratic member of this committee, to support 
morale among the DHS work force by establishing a chief learning and 
engagement officer, an Employee Engagement Steering Committee, and the 
Secretary's Employee Award Program at the Department.
    These are the areas that help improve morale and employee 
engagement and help move the FEMA work force in the right direction. 
Indeed, studies show that effective leadership is the No. 1 determinate 
of employee satisfaction and is therefore integral to the productivity 
and efficiency of an agency.
    I encourage my colleagues to realize that better training, fair 
policies, and recognition of good work are ways to improve the FEMA 
work force. I hope on this committee we can work on a bipartisan basis 
to do just that.

    Mr. Perry. We are pleased to have two distinguished panels 
of witnesses before us today. The witnesses' entire written 
statements will appear in the record. The Chair will introduce 
the first panel of witnesses and then recognize each of you for 
your testimony.
    Mr. David Grant is FEMA's acting deputy administrator. 
Prior to this position, he served as FEMA's associate 
administrator for mission support, as well as the chief 
procurement officer. Prior to joining FEMA Mr. Grant was chief 
of agency-wide shared services for the Internal Revenue 
Service. Thank you, Mr. Grant, and welcome.
    Mr. Chris Currie is a director in GAO's Homeland Security 
and Justice team where he leads the agency's work on DHS 
management, emergency management, National preparedness, and 
critical infrastructure protection issues.
    Prior to this position he served as an acting director in 
GAO's Defense Capabilities and Management team, where he led 
reviews of Department of Defense programs. Mr. Currie, thank 
you, and we appreciate your service as well.
    The Chair now recognizes Mr. Grant for your opening 
statement. Mr. Grant, just push the button and make sure the 
mike is----

STATEMENT OF DAVID GRANT, ACTING DEPUTY ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Grant. Yes, sir.
    Mr. Perry [continuing]. Right at your mouth.
    Mr. Grant. Can you hear me clearly sir? Thank you. Good 
morning Chairman Perry, Ranking Member Correa, and Members of 
the committee. As you said, my name is Dave Grant. I am FEMA's 
acting deputy director and--deputy administrator, excuse me, 
and thank you for the opportunity to testify today.
    This morning I would like to provide an overview of our 
efforts to address the Government Accountability Office's, or 
GAO's, performance audit of FEMA's process for handling 
allegations of employee misconduct. The GAO report does 
recognize that FEMA has effective and efficient misconduct 
policies and procedures for its employees, and I appreciate 
that. Although we agree that we need to do a better job in 
documenting those procedures, and we have already begun to do 
so.
    FEMA documents its cases and outcomes to ensure timely 
adjudication, verify that FEMA complies with all legal 
requirements to treat our employees in a fair and equitable 
manner, and for auditing purposes.
    FEMA also has a process through which misconduct data is 
shared with Homeland Security's inspector general. The vast 
majority of FEMA's personnel serve effectively and honorably, 
and I appreciate you both recognizing that.
    They provide critical assistance to communities in their 
time of greatest need. In those rare instances when a FEMA 
employee or individual representing FEMA is accused of 
misconduct FEMA takes immediate action to address those 
allegations.
    Under Stafford Act authorities, FEMA has created unique 
policies and procedures for taking disciplinary actions 
Stafford Act employees when required and necessary.
    The Stafford Act affords FEMA the latitude to devise 
disciplinary processes outside those requirements of Title 5. 
Those allow those cases to be quickly initiated, reviewed, and 
finalized. FEMA employs an appeals process for those Stafford 
Act cases to confirm that the appropriate action was taken when 
misconduct has occurred, ensuring that they are subject to a 
fair and equitable process.
    While FEMA does not have written policies and procedures 
specifically addressing the surge capacity work force that you 
mentioned a moment ago, management is empowered to take 
necessary actions to address the misconduct following FEMA's 
existing policies and procedures that apply to FEMA personnel.
    With regard to surge capacity personnel, it is important to 
note that they are not FEMA employees. FEMA does not have the 
authority to take disciplinary action regarding those 
individuals because they remain officially employed by their 
sponsoring Federal agencies while engaged in activities on our 
behalf. The sponsoring agency is responsible for appropriate 
disciplinary action against those personnel.
    For our Title 5 employees, FEMA has made significant 
strides in documenting and improving our policies and 
procedures, including the creation of an administrative 
investigation directive and manual to delineate the process for 
receiving and adjudicating the complaints of misconduct, 
sending those complaints as appropriate to the DHS inspector 
general, and direct misconduct investigations within FEMA.
    This directive is currently being reviewed and updated, and 
we expect it to be completed by December of this year. Although 
FEMA has an effective misconduct process in place for Title 5 
and Stafford Act employees, the GAO recommended that FEMA take 
additional steps to clarify the process.
    The GAO report makes several recommendations, including the 
documentation of policies and procedures related to FEMA's 
surge capacity force, its disaster force, and to clearly 
communicate misconduct policies, including consequences and 
appeals process.
    The GAO also recommended that FEMA work to improve the 
quality and usefulness of its misconduct data that it collects, 
and once that quality is improved, conduct routine reporting on 
misconduct trends. FEMA wholeheartedly agrees with each of 
those six recommendations, and we have already initiated 
several lines of effort that will address those concerns when 
fully implemented.
    I want to assure you that FEMA is committed to effective 
support of our citizens and our first responders during 
disasters and emergencies. That is our mission and we take it 
very seriously. The overwhelming majority of our work force 
serves honorably and effectively. We are committed to 
investigating all allegations of misconduct and to 
appropriately hold those individuals accountable.
    One instance of substantiated misconduct is one too many. 
FEMA takes these allegations seriously. We look forward to 
working with the committee, with our partners at GAO, our 
partners in the Inspector General's office to improve our 
practice.
    I thank you for the opportunity to testify, and I am 
looking forward to answering your questions. Thank you.
    [The prepared statement of Mr. Grant follows:]
                   Prepared Statement of David Grant
                             July 27, 2017
                              introduction
    Good Morning, Chairman Perry, Ranking Member Correa, and Members of 
the committee. I am David Grant, acting deputy administrator of the 
U.S. Department of Homeland Security's (DHS) Federal Emergency 
Management Agency (FEMA). Thank you for this opportunity to meet with 
you today to discuss ways in which FEMA is improving its disciplinary 
and misconduct policies and procedures.
    From June 2016 through July 2017, the Government Accountability 
Office (GAO) conducted a performance audit of FEMA's process for 
handling allegations of employee misconduct. GAO reviewed FEMA's 
misconduct policies and procedures, data on misconduct cases, and the 
extent to which FEMA shares misconduct data with the DHS Office of 
Inspector General (DHS OIG).
    The GAO report recognized how FEMA already has effective and 
efficient misconduct policies and procedures applicable to employees 
hired under Title 5 of the U.S. Code (covering traditional Federal 
civilian employees) and employees hired through the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Stafford Act). FEMA 
records data regarding misconduct cases and outcomes to ensure timely 
adjudication of misconduct cases, verify misconduct cases are treated 
in a similar and equitable manner, and for auditing purposes. Finally, 
there is already a process for FEMA to share misconduct data with DHS 
OIG.
    GAO has not finalized the report; however, the contains the 
following recommendations to enhance efficiency: misconduct policies 
regarding Surge Capacity Force (SCF) personnel should be documented; 
additional guidance on the disciplinary and appeal process for 
Reservists should be provided; the range of penalties associated with 
specific acts of misconduct should be communicated; the quality and 
consistency of misconduct data should be improved; and FEMA should 
study misconduct data to identify any patterns or trends for further 
action.
    In my testimony today, I will discuss how FEMA is working to 
improve its misconduct process. FEMA is taking active steps to 
formalize the misconduct process for SCF employees, provide additional 
guidance on how Reservist misconduct is reviewed and addressed, and 
improve the quality of data associated with misconduct cases.
                       fema's disaster work force
    In assessing FEMA's process for handling misconduct, it is helpful 
and important to recognize and understand the unique features of FEMA's 
work force. Most Federal, civilian employees are hired under 
authorities set forth in Title 5 of the United States Code, which are 
standard for most of the Federal Government. As a consequence and 
feature of the special needs and circumstances of FEMA's emergency 
management mission, however, FEMA utilizes authorities and arrangements 
beyond those in Title 5. To effectively and efficiently respond to 
disasters, FEMA augments its permanent Title 5 work force by appointing 
temporary employees through the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (Stafford Act). FEMA has also partnered with 
the National Civilian Community Corps (NCCC) to create FEMA Corps, a 
dedicated volunteer unit of AmeriCorps that supports FEMA's mission. In 
addition, in response to particularly catastrophic events, FEMA may 
activate the Surge Capacity Force, comprising specially-designated, 
non-FEMA, Department of Homeland Security personnel, to reinforce FEMA 
personnel in support of Stafford Act functions when necessary.
    The Stafford Act grants FEMA the authority ``to appoint and fix the 
compensation of such temporary personnel as may be necessary, without 
regard to the provisions of Title 5, United States Code, and governing 
appointments in the competitive service.'' FEMA uses this Stafford Act 
appointing authority to hire Reservists, who are intermittent employees 
serving under 2 year appointments. Reservists are activated and 
deployed in support of disasters as response and recovery needs 
require. When not activated or deployed, Reservists remain in a non-
duty/non-pay status allowing FEMA to field sufficient disaster 
personnel in a cost-effective manner.
    In 2012, FEMA partnered with the Corporation for National and 
Community Service (CNCS) to strengthen the Nation's disaster response 
capacity by establishing a FEMA-devoted unit of 1,600 service corps 
members, within the AmeriCorps National Civilian Community Corps, to 
aid in disaster preparedness, response, and recovery activities. Upon 
completion of an initial orientation by NCCC and FEMA, FEMA Corps 
members are deployed to help individuals, families, and communities 
recover following the initial impact of a disaster. Projects include 
working directly with disaster survivors, providing support to disaster 
recovery centers, and sharing valuable disaster readiness and 
mitigation information with the public.
    The Post-Katrina Emergency Management Reform Act of 2006 (PKEMRA) 
requires the Secretary of Homeland Security to establish a Surge 
Capacity Force of Department of Homeland Security employees, who are 
not FEMA employees, and employees of other Federal agencies that could 
deploy in response to natural disasters, acts of terrorism, and other 
man-made disasters. DHS headquarters and its components, as well as 
other partnering Federal agencies, designate employees to serve on the 
SCF and ensure such employees are ready to deploy within 48 hours of a 
warning, alert, or no-notice activation.
    In very rare circumstances, a disaster of extraordinary size may 
require the DHS Secretary to activate the SCF. During a declared 
disaster, the DHS Secretary will determine if SCF support is necessary. 
If the SCF is required, the Secretary will then authorize FEMA to task 
and deploy SCF personnel from DHS components and other Federal agencies 
to support disaster operations. The SCF was successfully activated by 
former DHS Secretary Janet Napolitano, at the request of former FEMA 
Administrator Craig Fugate in response to Hurricane Sandy. 
Approximately 1,150 SCF personnel were activated to assist FEMA's 
disaster response efforts, providing critical support to Individual 
Assistance, Disaster Survivor Assistance, and Logistics mission areas.
              disciplinary process for disaster personnel
    The vast majority of FEMA's disaster personnel effectively and 
honorably serve the Nation providing critical assistance to 
communities, first responders, and disaster survivors to respond to and 
recover from disasters and emergencies. In rare instances when a FEMA 
employee, or an individual representing FEMA, is accused of misconduct, 
FEMA takes immediate action to address the allegations.
    Using the authority granted by the Stafford Act, FEMA created 
unique policies and procedures for taking disciplinary actions against 
Reservists to meet FEMA's mission requirements. The Stafford Act 
affords FEMA the latitude to devise a disciplinary process outside of 
the requirements of Title 5. The process in place allows for 
disciplinary cases to be quickly initiated, reviewed, and finalized. 
FEMA employs an internal appeals process for Reservist disciplinary 
cases to confirm appropriate action is taken in response to acts of 
misconduct. The process ensures Reservists are subject to a fair and 
equitable disciplinary process, while minimizing the impact of the 
disciplinary process on disaster operations.
    While FEMA does not have written policies and procedures 
specifically for guiding misconduct investigations involving SCF 
personnel, if such cases arise, the Office of Chief Counsel, the Office 
of the Chief Component Human Capital Officer, and the Office of the 
Chief Security Officer are empowered to take necessary actions to 
address misconduct and would follow FEMA's existing policies and 
procedures for conducting misconduct investigations that apply to FEMA 
personnel. With regard to taking disciplinary action against SCF 
personnel as a result of misconduct investigations, it is important to 
note that SCF personnel are not FEMA employees. FEMA does not have the 
authority to take disciplinary actions regarding these individuals 
because SCF personnel remain officially employed by their sponsoring 
organization (e.g., DHS headquarters, component, other Federal agency) 
while engaging in activities on FEMA's behalf. The sponsoring 
organization would be responsible for effecting any appropriate 
disciplinary action against its SCF personnel.
                development of fema's misconduct policy
    Over the past several years, FEMA made significant strides in 
documenting and improving the disciplinary and misconduct policies and 
procedures.
    Prior to 2012, FEMA did not have written or established policies or 
procedures on how to conduct employee misconduct investigations. 
Although FEMA had a process for imposing disciplinary action, FEMA did 
not have a uniform process for investigating the facts surrounding a 
misconduct allegation to determine whether disciplinary action was 
warranted. Rather, the Office of the Chief Component Human Capital 
Officer (OCCHCO) Labor and Employee Relations Branch conducted ad hoc 
investigations to clarify the factual circumstances associated with a 
misconduct allegation. On some occasions, the Office of the Chief 
Security Officer (OCSO) would assist OCCHCO to gather necessary witness 
statements. Alternatively, an attorney with the Office of Chief Counsel 
(OCC) General Law Division would investigate a misconduct allegation in 
the process of reviewing a disciplinary action.
    In 2012, OCC, OCCHCO, and OCSO collaborated in creating FEMA 
Directive 123-19, Administrative Investigations Policy (Administrative 
Investigations Directive), and an accompanying manual, FEMA Manual 123-
19-1, Administrative Investigations (Administrative Investigations 
Manual), establishing a process for the three offices to receive 
complaints of employee misconduct, send complaints to the DHS Office of 
Inspector General as required by DHS policy, and direct misconduct 
investigations within FEMA. The Administrative Investigations Directive 
and Manual require the three offices to meet weekly and review all 
known complaints to ensure complaints are properly investigated. The 
Administrative Investigations Directive and Manual also institute a 
formalized process for appointing investigators and finalizing 
investigative reports, which are reviewed by the OCCHCO Labor and 
Employee Relations Branch for potential disciplinary action.
    In practice, if there are misconduct allegations against SCF 
personnel, the misconduct investigation process would follow the 
current investigations process for FEMA employees. FEMA would notify 
the parent organization of the allegation. Simultaneously, depending on 
the nature and credibility of the allegation, the SCF personnel may be 
demobilized and returned to their employing agency. Any additional 
information gathered through the investigations process would be 
provided to the employing agency for that agency's consideration in its 
determination of what action to take.
    Currently, the Administrative Investigations Directive and Manual 
are undergoing a periodic review and update as mandated by FEMA policy. 
The updated version of the directive and manual will streamline some of 
the processes and are expected to be finalized and signed in 2017.
                          gao recommendations
    Although FEMA has an effective misconduct process in place for 
Title 5 and Stafford Act employees, GAO has recommended that FEMA take 
additional steps to clarify the process and improve data associated 
with misconduct cases. The GAO report makes several recommendations to 
improve managing misconduct. FEMA agrees with those recommendations, 
and has already initiated several lines of effort that will address 
GAO's concerns when fully implemented.
Recommendation 1: Document policies and procedures to address potential 
        Surge Capacity Force misconduct.
    Proper documentation of the misconduct process for SCF personnel 
helps to ensure a consistent and reliable investigation process. 
Although FEMA would apply its existing administrative investigation 
procedures to allegations against SCF personnel, the FEMA policies 
governing those procedures do not specifically state that they apply to 
investigations of SCF personnel. Ensuring that application of the 
existing administrative investigation procedures to SCF personnel is 
spelled out clearly, in writing, will help eliminate any potential 
confusion. DHS charged FEMA with developing a human capital plan for 
the SCF to address this issue and other human capital related aspects 
of deploying the SCF.
Recommendation 2: Document Reservist misconduct policies and 
        procedures, to include disciplinary actions and appeals 
        currently in practice at FEMA.
    FEMA is committed to providing employees subject to allegations of 
misconduct a fair and equitable process for addressing such 
allegations. FEMA already applies a consistent process for reviewing 
misconduct allegations involving Reservists and taking appropriate 
disciplinary actions, but FEMA can do more to make employees aware of 
the process. To address employee perceptions, FEMA will issue 
additional guidance regarding the disciplinary process for Reservists.
Recommendation 3: Communicate the range of penalties for specific 
        misconduct offenses to all employees and supervisors.
    FEMA is committed to communicating with employees and providing 
guidance on the disciplinary process, while ensuring FEMA complies with 
applicable privacy laws and regulations. Such information will increase 
the perception among supervisors and employees that the disciplinary 
process results in fair and equitable decisions. FEMA's Office of the 
Chief Component Human Capital Officer drafted a Table of Penalties, 
which is undergoing agency review. FEMA anticipates the new Table of 
Penalties will be approved and finalized in the near future.
Recommendation 4: Improve the quality and usefulness of the misconduct 
        data it collects by implementing quality control measures, such 
        as adding additional drop-down fields with standardized 
        entries, adding unique case identifier fields, developing 
        documented guidance for data entry, or considering the adoption 
        of database software.
    The Office of the Chief Component Human Capital Officer, the Office 
of Chief Counsel, and the Office of the Chief Security Officer are 
working together to provide consistent and accurate misconduct data. 
FEMA is working on securing funding to purchase a case management 
system that supports FEMA's misconduct process. Until sufficient 
funding can be secured, FEMA is modifying its existing tracking tools 
to include drop-down fields in order to provide standardized data 
entries and include a column to cross-reference any case referred to 
DHS OIG, received from the DHS OIG, or investigated by OCSO.
Recommendation 5: Once the quality of data is improved, conduct routine 
        reporting on employee misconduct trends.
    Stakeholders managing the disciplinary and misconduct processes are 
constantly seeking ways to improve the investigation process, identify 
misconduct trends for strategic remediation, and ensure consistent and 
fair results. FEMA already provides trend analysis to program areas 
upon request; however, FEMA is currently seeking to acquire a system 
that enables additional analytic capabilities. Analyzing misconduct 
data will allow FEMA to identify and address emerging trends of 
misconduct through targeted training to promote integrity within the 
work force.
Recommendation 6: Develop reconciliation procedures to consistently 
        track referred cases.
    FEMA is working with the DHS OIG to establish processes and 
procedures that will improve reconciliation of case data. FEMA is also 
working on the feasibility of using the same cases management system 
used by the DHS OIG. This would allow for a seamless flow of case 
information between the two agencies. A case management system will 
help in this endeavor. Until then, more care will be taken to reconcile 
cases manually.
                               conclusion
    FEMA is committed to providing effective support to our citizens 
and first responders during disasters and emergencies. That commitment 
includes a commitment to investigate allegations of misconduct and 
appropriately hold individuals accountable. FEMA currently has an 
effective misconduct and disciplinary process and routinely looks for 
ways to improve that process. FEMA appreciates GAO's assistance and 
recommendations in this regard and will take appropriate action to 
address the concerns they identify in their final report. Again, thank 
you for allowing me to testify, and I am happy to answer any questions 
the committee may have.

    Mr. Perry. Thank you, Mr. Grant.
    The Chair now recognizes Mr. Currie for his opening 
statement. Sir.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Perry. Thank you Ranking 
Member Correa and other Members of the subcommittee that are 
here today. I would like to summarize the report we issued just 
last week on FEMA misconduct. I will try not to duplicate too 
much of what was already mentioned in the summary of the 
opening statements.
    To be clear, any amount of misconduct in any agency is 
never a good thing and in FEMA's case, as was discussed, its 
full-time and reserve employees interact with State and local 
first responders and officials and citizens during times of 
extreme stress and vulnerability.
    Misconduct by its employees cannot only hamper FEMA's 
mission, but also damage the agency's reputation. We all saw 
how quickly public trust can be lost after Hurricane Katrina in 
2005 and how long it takes to rebuild it.
    However, cases of employee misconduct exist at every 
agency. That is why it is so important that agencies have 
procedures to address it quickly, take consistent disciplinary 
action, and have the systems needed to monitor misconduct 
across the entire agency, especially one as large as FEMA.
    Now, to quickly summarize our report, first, I would like 
to discuss the numbers and the types of cases we saw at FEMA. 
Second, I will summarize our assessment of FEMA's policies and 
process for handling these cases.
    First we identified, as the Chairman noted, about 600 
misconduct cases at FEMA from January 2014 to September 2016. 
That is about a 3-year time period across an agency of 20,000 
employees, give or take which work force is included in that 
number. The most common cases related to integrity and ethics 
violations, inappropriate conduct, and misuse of Government 
funds.
    For example, one alleged case involved a FEMA employee in 
the field accepting illegal gifts from a contractor. Other 
cases involved more internal issues such as supervisor 
harassment and favoritism.
    The data showed that misconduct was most common among 
FEMA's part-time reservists, and the agency took a range of 
disciplinary actions in these cases. The most common 
disciplinary action was removal or termination, followed by 
reprimands and various levels of suspension.
    While these cases are always shocking to hear, agencies 
send a clear message when they have strong processes, controls, 
and systems to handle them quickly and effectively. We found a 
number of areas where we think FEMA could improve in this area.
    For example, we found that while FEMA had discipline 
policies for many of its employees, it had no policies for 
reservists. And that is about 7,000 employees at the agency. 
FEMA also had not developed a table of offenses and penalties 
to communicate to employees.
    We also found FEMA's misconduct data and systems for 
tracking cases frankly, was a bit messy. For example, various 
internal FEMA offices maintained information in different 
formats making it very difficult to track cases and identify 
trends across the whole agency. We recommended that FEMA 
improve its data and better report on these trends.
    We also identified problems in FEMA's process for sharing 
and following up on cases referred from the DHS Office of 
Inspector General. I think it is important I understand this 
process. DHS policy requires components like FEMA to send 
serious misconduct cases to the I.G. The I.G. then determines 
whether they want to investigate it or not.
    The I.G. typically handles the more serious cases. such as 
criminal or those involving very senior staff such as senior 
executive service officials, and refers the rest back to FEMA 
for internal investigation.
    What we found is that FEMA sometimes missed cases referred 
from the I.G. We took a random sample of these cases and found 
a number of them where there was no follow-up investigation 
conducted. Now, after we alerted FEMA. they did follow up and 
adjudicate the cases. So we recommended that they work with the 
I.G. to strengthen that whole process.
    As Mr. Grant noted, and to FEMA's credit, they have agreed 
with all of our recommendations and are taking action to 
address them. For example, they are working to document 
discipline policies for reservists now and plan to communicate 
a table of offenses and penalties to all the agency staff.
    FEMA is also working with the I.G. to develop a new case 
management system to clean up the data and better ensure 
reconciliation of cases. This concludes my statement, and I 
look forward to your questions.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                             July 27, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee: I am pleased to be here today to discuss our recent 
report on employee misconduct at the Federal Emergency Management 
Agency (FEMA). FEMA is responsible for coordinating Government-wide 
efforts in preparing for, protecting against, mitigating the effects 
of, responding to, and recovering from all domestic natural or man-made 
disasters, including acts of terror. To accomplish this mission, the 
agency relies on a total work force of more than 22,000 permanent and 
disaster-related temporary employees.\1\ These employees play a key 
role in supporting communities and first responders. However, incidents 
of misconduct can detract from FEMA's mission, damage the agency's 
reputation, and hamper the agency's ability to respond to disasters and 
maintain public trust if not effectively managed.
---------------------------------------------------------------------------
    \1\ FEMA's combined work force includes permanent and disaster 
response employees, as well as individuals from two newer personnel 
groups--the Department of Homeland Security (DHS) Surge Capacity Force 
and FEMA Corps--who are not FEMA employees, but who are included in 
FEMA's work force categories for the purposes of our review.
---------------------------------------------------------------------------
    Within FEMA, three primary offices are involved in reviewing, 
investigating, and adjudicating employee misconduct allegations.\2\
---------------------------------------------------------------------------
    \2\ FEMA's Office of Equal Rights may also be involved in certain 
cases involving allegations of discrimination.
---------------------------------------------------------------------------
  <bullet> Office of the Chief Security Officer (OCSO) Internal 
        Investigations Branch.--Conducts investigations related to more 
        serious allegations, such as those that may involve potential 
        criminal misconduct.
  <bullet> The Office of the Chief Component Human Capital Officer 
        Labor and Employee Relations Branch (LER).--Advises supervisors 
        who conduct lower-level investigations and inquiries, such as 
        time and attendance violations, and provides recommendations on 
        any counseling or any disciplinary or adverse action for all 
        cases.
  <bullet> The Office of the Chief Counsel Personnel Law Branch 
        (PLB).--Provides legal advice during investigations and 
        conducts legal reviews of certain reports of investigation and 
        all disciplinary and adverse actions.\3\
---------------------------------------------------------------------------
    \3\ According to PLB officials, PLB does not review Reservist 
disciplinary actions or terminations unless requested to do so.
---------------------------------------------------------------------------
    Representatives from these three offices form FEMA's Administrative 
Investigations Directive (AID) Committee, which reviews misconduct 
allegations, assigns investigators, and tracks the status of open 
cases. The Department of Homeland Security (DHS) Office of Inspector 
General (OIG) also plays a role in reviewing and investigating certain 
misconduct allegations, such as allegations of criminal misconduct 
against a DHS employee and any allegations of misconduct against senior 
employees.\4\
---------------------------------------------------------------------------
    \4\ Senior employees include those at the GS-15 level or higher.
---------------------------------------------------------------------------
    My testimony discusses findings from our July 2017 report on the 
handling of employee misconduct allegations at FEMA.\5\ Accordingly, my 
testimony addresses: (1) The extent to which FEMA has developed 
policies and procedures for addressing employee misconduct; (2) 
available data on FEMA employee misconduct cases and their outcomes and 
the extent to which FEMA uses these data to identify and address 
trends; and (3) the extent that information regarding misconduct cases 
is shared within FEMA's personnel management offices and with DHS OIG.
---------------------------------------------------------------------------
    \5\ GAO, Federal Emergency Management Agency: Additional Actions 
Needed to Improve Handling of Employee Misconduct Allegations, GAO-17-
613 (Washington, DC: July 18, 2017).
---------------------------------------------------------------------------
    To conduct this work, among other things, we reviewed, where 
available, FEMA's documented policies and procedures for reporting, 
investigating, and adjudicating allegations of misconduct across all of 
the agency's work force categories, including the following: Title 5 
employees,\6\ Cadre of On-Call Response/Recovery Employees (CORE), 
Reservists, Surge Capacity Force members, and FEMA Corps members.\7\ We 
also interviewed officials from FEMA units with responsibilities 
related to managing misconduct and analyzed available FEMA data on 
employee misconduct. Specifically, we reviewed and analyzed available 
2014 through 2016 data contained in three misconduct case tracking 
spreadsheets maintained by FEMA's OCSO, LER, and PLB. Our July 2017 
report includes a detailed explanation of the scope and methods used to 
conduct our work, which was performed in accordance with generally 
accepted Government auditing standards.
---------------------------------------------------------------------------
    \6\ Generally, Title 5 refers to the section of United States Code 
that establishes the law for managing human resources in the Federal 
Government. Title 5 employees can be hired on a permanent or temporary, 
full- or part-time basis. Over 90 percent of FEMA's Title 5 work force 
is permanent full-time.
    \7\ Work force categories are defined as: Title 5 (generally 
permanent employees), CORE (temporary employees who support disaster-
related activities), Reservist (intermittent disaster employees), Surge 
Capacity Force (employees of other DHS components who may augment 
FEMA's work force in the event of a catastrophic disaster), and FEMA 
Corps (a National service program managed by AmeriCorps National 
Civilian Community Corps).
---------------------------------------------------------------------------
 fema has developed and documented misconduct policies and procedures 
           for most employees, but not its entire work force
    FEMA has developed a policy and procedures regarding misconduct 
investigations that apply to all FEMA personnel and has also documented 
policies and procedures regarding options to address misconduct and 
appeal rights for Title 5 and CORE employees. However, FEMA has not 
documented complete misconduct policies and procedures for Surge 
Capacity Force members or Reservists.
    DHS issued the Surge Capacity Force Concept of Operations in 2010, 
which outlines FEMA's base implementation plan for the Surge Capacity 
Force.\8\ However, the document does not address any elements 
pertaining to Surge Capacity Force human capital management, 
specifically misconduct and disciplinary policies and procedures. 
According to the FEMA Surge Capacity Force Coordinator, despite the 
lack of documentation, any incidents of misconduct would likely be 
investigated by FEMA's OCSO, which would then refer the completed 
report of investigation to the employee's home component for 
adjudication and potential disciplinary action. However, although no 
allegations of misconduct were made at the time, the Federal 
Coordinating Officer in charge of one of the Hurricane Sandy Joint 
Field Offices said he had not seen anything in writing or any formal 
guidance that documents or explains how the process would work and 
stated that he would have had to contact FEMA headquarters for 
assistance in determining how to address any misconduct.\9\
---------------------------------------------------------------------------
    \8\ See 6 U.S.C. Sec. 711(a) (requiring the FEMA administrator to 
prepare a plan to establish and implement the Surge Capacity Force).
    \9\ Joint field offices are Federal multi-agency centers which are 
established locally in order to coordinate the response to domestic 
incidents, such as terrorist attacks, major disasters, or other 
emergencies.
---------------------------------------------------------------------------
    Without documented guidance, FEMA cannot ensure that Surge Capacity 
Force misconduct is addressed adequately in a timely and comprehensive 
manner. Therefore, in our July 2017 report we recommended that the FEMA 
administrator document policies and procedures to address potential 
Surge Capacity Force misconduct. DHS concurred and stated that FEMA is 
developing a Human Capital plan for the Surge Capacity Force and will 
include policies and procedures relating to potential misconduct. DHS 
estimated that this effort would be completed by June 30, 2018. This 
action, if fully implemented, should address the intent of the 
recommendation.
    Additionally, we found that FEMA's Reservist Program Manual lacks 
documented policies and procedures on disciplinary options to address 
misconduct and appeal rights for Reservists.\10\ Both LER and PLB 
officials told us that, in practice, disciplinary actions for 
Reservists are limited to reprimands and termination. According to 
these officials, FEMA does not suspend Reservists because they are an 
intermittent, at-will work force deployed as needed to respond to 
disasters. Federal Coordinating Officers and cadre managers have the 
authority to demobilize Reservists and remove them from a Joint Field 
Office if misconduct occurs, which may be done in lieu of suspension. 
Furthermore, LER and PLB officials also told us that, in practice, FEMA 
grants Reservists the right to appeal a reprimand or termination to 
their second-level supervisor. However, these actions are not 
documented in the Reservist Program Manual.
---------------------------------------------------------------------------
    \10\ Federal Emergency Management Agency, FEMA Reservist Program FD 
010-6 Revision Number: 02 (Jan. 25, 2017).
---------------------------------------------------------------------------
    Without documented Reservist disciplinary options and appeals 
policies, supervisors, and Reservist employees may not be aware of all 
aspects of the disciplinary and appeals process. Thus, in our July 2017 
report, we recommended that FEMA document Reservist disciplinary 
options and appeals that are currently in practice at the agency. DHS 
concurred and stated that FEMA will update its Reservist program 
directive to include procedures for disciplinary actions and appeals 
currently in practice at the agency. DHS estimated that this effort 
would be completed by December 31, 2017. This action, if fully 
implemented, should address the intent of the recommendation.
    We also reported in our July 2017 report that FEMA does not 
communicate the range of offenses and penalties to its entire work 
force. Namely, FEMA revised its employee disciplinary manual for Title 
5 employees in 2015, and in doing so, eliminated the agency's table of 
offenses and penalties. Tables of offenses and penalties are used by 
agencies to provide guidance on the range of penalties available when 
formal discipline is taken. They also provide awareness and inform 
employees of the penalties which may be imposed for misconduct. Since 
revising the manual and removing the table, FEMA no longer communicates 
possible punishable offenses to its entire work force. Instead, 
information is now communicated to supervisors and employees on an 
individual basis. Specifically, LER specialists currently use a 
``comparators'' spreadsheet with historical data on previous misconduct 
cases to determine a range of disciplinary or adverse actions for each 
specific misconduct case. The information used to determine the range 
of penalties is shared with the supervisor on a case-by-case basis; 
however, LER specialists noted that due to privacy protections they are 
the only FEMA officials who have access to the comparators 
spreadsheet.\11\
---------------------------------------------------------------------------
    \11\ The comparators spreadsheet contains personally identifiable 
information about specific cases, such as subject names. According to 
LER and PLB officials, this information is subject to privacy 
protections.
---------------------------------------------------------------------------
    Because information about offenses and penalties is not universally 
shared with supervisors and employees, FEMA management is limited in 
its ability to set expectations about appropriate conduct in the 
workplace and to communicate consequences of inappropriate conduct. We 
recommended that FEMA communicate the range of penalties for specific 
misconduct offenses to all employees and supervisors. DHS concurred and 
stated that FEMA is currently drafting a table of offenses and 
penalties and will take steps to communicate those penalties to 
employees throughout the agency once the table is finalized. DHS 
estimated that this effort would be completed by December 31, 2017. 
This action, if fully implemented, should address the intent of the 
recommendation.
fema records data on employee misconduct cases and their outcomes, but 
could improve the quality and usefulness of these data to identify and 
                             address trends
Multiple FEMA Offices Collect Misconduct Data; FEMA OCSO Recorded 
        Approximately 600 Misconduct Complaints from January 2014 
        through September 30, 2016
    The three offices on the AID Committee involved in investigating 
and adjudicating employee misconduct complaints each maintain separate 
case tracking spreadsheets with data on employee misconduct to 
facilitate their respective roles in the misconduct review process. We 
analyzed data provided by OCSO in its case tracking spreadsheet and 
found that there were 595 complaints from January 2014 through 
September 30, 2016. The complaints involved alleged offenses of 
employee misconduct which may or may not have been substantiated over 
the course of an investigation.
    Based on our analysis, the 595 complaints contained approximately 
799 alleged offenses from January 2014 through September 30, 2016. As 
shown in figure 1 below, the most common type of alleged offenses were 
integrity and ethics violations (278), inappropriate comments and 
conduct (140), and misuse of Government property or funds (119). For 
example, one complaint categorized as integrity and ethics involved 
allegations that a FEMA employee at a Joint Field Office was accepting 
illegal gifts from a FEMA contractor and a State contractor. Another 
complaint categorized as inappropriate comments and conduct involved 
allegations that a FEMA employee's supervisor and other employees had 
bullied and cursed at them, creating an unhealthy work environment. 
Finally, a complaint categorized as misuse of Government property or 
funds involved allegations that a former FEMA employee was terminated 
but did not return a FEMA-owned laptop.
Figure 1.--Alleged FEMA Employee Misconduct Offenses Reported to OCSO 
        by Category: January 2014 through September 30, 2016
        
        
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

Note.--According to agency officials, lower-level alleged offenses, 
such as being absent without leave, are typically addressed by the 
Labor and Employee Relations Branch and may not be included in the OCSO 
data we reviewed.
Aspects of FEMA's Data Limit Their Usefulness for Identifying and 
        Addressing Trends in Employee Misconduct
    OCSO, LER, and PLB collect data on employee misconduct and 
outcomes, but limited standardization of fields and entries within 
fields, limited use of unique case identifiers, and a lack of 
documented guidance on data entry restricts their usefulness for 
identifying and addressing trends in employee misconduct. FEMA employee 
misconduct data are not readily accessible and cannot be verified as 
accurate and complete on a timely basis. These limitations restrict 
management's ability to process the data into quality information that 
can be used to identify and address trends in employee misconduct. For 
example, an OCSO official stated that senior OCSO officials recently 
requested employee misconduct information based on employee type, such 
as the number of Reservists. However, the data are largely captured in 
narrative fields, making it difficult to extract without manual review.
    In our July 2017 report we recommended that FEMA improve the 
quality and usefulness of the misconduct data it collects by 
implementing quality control measures, such as adding additional drop-
down fields with standardized entries, adding unique case identifier 
fields, developing documented guidance for data entry, or considering 
the adoption of database software. In addition, we recommended that 
FEMA conduct routine reporting on employee misconduct trends once the 
quality of the data is improved. DHS concurred and stated that FEMA is 
working with the DHS OIG to develop a new case management system. The 
system will use drop-down fields with standardized entries and provide 
tools for trend analysis. Once the new system is implemented, DHS 
stated that FEMA will be able to routinely identify and address 
emerging trends of misconduct. DHS estimated that these efforts would 
be completed by March 31, 2018. These actions, if fully implemented, 
should address the intent of the recommendations.
 fema shares misconduct case information internally and with dhs oig, 
  but does not accurately track dhs oig referred misconduct complaints
FEMA Offices Meet Regularly to Discuss Misconduct Allegations and On-
        going Investigations and Send Monthly Status Updates to DHS OIG
    Officials from OCSO, LER, and PLB conduct weekly AID committee 
meetings to coordinate information on misconduct allegations and 
investigations. The committee reviews allegations, refers cases for 
investigation or inquiry, and discusses the status of investigations. 
In addition to the weekly AID committee meetings, LER and PLB officials 
stated that they meet on a regular basis to discuss disciplinary and 
adverse actions and ensure that any penalties are consistent and 
defensible in court. Employee misconduct information is also shared 
directly with FEMA's chief security officer and chief counsel. Within 
FEMA, these regular meetings and status reports provide officials from 
key personnel management offices opportunities to communicate and share 
information about employee misconduct. FEMA also provides DHS OIG with 
information on employee misconduct cases on a regular basis through 
monthly reports on open investigations.
FEMA's Procedures for Tracking DHS OIG Referred Cases Need Improvement
    We found that OCSO has not established effective procedures to 
ensure that all cases referred to FEMA by DHS OIG are accounted for and 
subsequently reviewed and addressed. As discussed earlier, OCSO sends a 
monthly report of open investigations to DHS OIG. However, while these 
reports provide awareness of specific investigations, according to OCSO 
officials, neither office reconciles the reports to a list of referred 
cases to ensure that all cases are addressed. We reviewed a non-
generalizable random sample of 20 fiscal year 2016 employee misconduct 
complaints DHS OIG referred to FEMA for review and found that FEMA 
missed 6 of the 20 complaints during the referral process and had not 
reviewed them at the time of our inquiry. As a result of our review, 
FEMA subsequently took action to review the complaints. The AID 
committee recommended that OCSO open inquiries in 3 of the 6 cases to 
determine whether the allegations were against FEMA employees, assigned 
2 cases to LER for further review, and closed 1 case for lack of 
information. According to an OCSO official, OCSO subsequently 
determined that none of the allegations in the 3 cases they opened 
involved FEMA employees and the cases were closed. The remaining 2 
cases were open as of April 2017.
    The results from our sample cannot be generalized to the entire 
population of referrals from DHS OIG to FEMA; however, they raise 
questions as to whether there could be additional instances of 
misconduct complaints that FEMA has not reviewed or addressed. 
Therefore, in our July 2017 report we recommended that FEMA develop 
reconciliation procedures to consistently track referred cases. DHS 
concurred and stated that once the new case management system described 
above is established and fully operational, FEMA will be able to upload 
all DHS OIG referrals into a single, agency-wide database. 
Additionally, FEMA will work with DHS OIG to establish processes and 
procedures that will improve reconciliation of case data. DHS estimated 
that these efforts would be completed by March 31, 2018. These actions, 
if fully implemented, should address the intent of the recommendation.

    Mr. Estes [presiding]. Thank you, Mr. Currie.
    Now we will go into questions from the Members. I will 
recognize myself first to ask the first series of questions. We 
will go through the 5-minute time period for each Member as 
well.
    Mr. Grant, you know, the reservist program manual currently 
does not include information on the disciplinary process or 
appeals rights for reservists. Is that part of what FEMA is 
planning to add to the manual as part of this review?
    Mr. Grant. Yes, sir. The reservist misconduct policies and 
procedures will be updated to include disciplinary actions and 
the appeals. We intend to issue that by December 31 of this 
year.
    Mr. Estes. Thank you. Again for Mr. Grant, what is FEMA 
doing to ensure that misconduct and discipline are handled 
consistently across its work force categories or regions or 
different field offices?
    Mr. Grant. Well, as Mr. Currie correctly noted, we do have 
some inconsistent systems. We currently maintain three 
different systems from three different offices: Office of Chief 
Council, Office of Chief Security Officer, and labor relations 
within the Chief Human Capital Office. Those three 
organizations meet weekly to discuss the various caseloads.
    The problems could come in to any one of those groups and 
then they meet every week to discuss and make sure that nothing 
slips through the crack.
    Those issues that are raised to the level of the inspector 
general are reported by chief security officer to the I.G. As 
Mr. Currie indicated, they make the decision whether or not 
they will investigate and they return them to us.
    We did note that six of those cases that they found were 
not appropriately investigated by us in a timely manner. We 
have subsequently taken that under advisement and fixed that 
problem. We don't believe that that problem will occur again.
    The other issue that we are doing, which Mr. Currie noted 
and I appreciate, is that we are partnering with the I.G. to 
actually adopt their system, their I.T. system or case 
management system. They have given us the system.
    We have deployed it in our test environment to determine 
whether or not it will operate in the FEMA network. If it 
will--we hope that it will--that testing should be done by 
October. Then we will deploy it within the chief security 
officer as a pilot.
    If that then works, then we will deploy it across our 
enterprise, and it will become a singular system with common 
nomenclature, common case management numbers so that--one of 
the issues that the GAO recognized was that having a singular 
case number system to go up to the I.G. and back would allow us 
to track every case to completion.
    We don't have that today. We don't have common nomenclature 
between the three systems. That is what causes us to then have 
a manual conversation every week. So we try and manage it 
manually. We think by deploying the I.G. system that will 
enable us to fix much of the problem that GAO raised.
    Mr. Estes. It does seem that it would be much more logical 
to have the one system that you could work from and be 
consistent across the offices, as well as----
    Mr. Grant. Yes, sir.
    Mr. Estes [continuing]. Tracking.
    Mr. Currie, you know, in 2006, you know, FEMA ranked 284th 
out of the 305 agencies in terms of best places to work. Can 
you talk about a little bit about what you may have observed in 
terms of what is the cause of this or what practices might be 
improved?
    Mr. Currie. Yes, sir. Well first of all, we look at morale 
across all of the Department of Homeland Security and all of 
the components. It is a key reason that the Departmental 
management is still on GAO's high-risk list.
    It is very, very important. You cannot separate the morale 
of the employees from the mission of the organization. Those 
two are tied together. They are not separate things.
    We have been very interested in watching FEMA's progress in 
this area. I am not sure I have a reason, per se, for the low 
morale. We have looked at their recent plans they put together 
to increase employee engagement.
    One of the key reasons that FEMA itself has cited is, 
frankly, a lack of trust of upper-level leadership. That is 
much higher actually than trust of immediate supervisors. So I 
think the morale issue feeds directly into that.
    Employees want to know that other employees are being held 
accountable and that their leaders are playing fairly and 
following the rules. I think having stronger misconduct 
policies and procedures and communicating those will help that.
    Mr. Estes. All right, thank you.
    I am about out of time here, so I will turn the questioning 
over to Ranking Member Correa.
    Mr. Correa. Thank you, Chairman Estes. I just wanted to 
follow that line of questioning, and I think the Chair is 
absolutely on to something, which is morale and misconduct.
    Mr. Currie, you just said there is lack of trust in upper-
level management. If I pull back and think about FEMA, as I 
mentioned earlier, you are effectively first responders. Your 
workplace is a challenging one.
    When you are called to respond to a disaster, you encounter 
things that are very difficult to work with. You do your job, 
and I would imagine you do it with honor.
    That is why you continue to do what you do. Yet if you have 
a lack of morale, that tells me that there is something there 
that is not connected, lack of trust in upper management.
    Also the issue of misconduct. You want to know that that 
person that you are working next to is an honorable individual.
    So I would ask both of you, misconduct, percentage-wise--
FEMA has been around since 1979. Is this a pattern that has 
exploded? Is it State level? Has this gone up or down? What are 
the percentages of, you know, levels of misconduct or 
categories?
    Mentioned a laptop missing, a person taking a gift from a 
contractor, how many times do you have this happen percentage-
wise? Personnel issues. Somebody gets mad at their, you know, 
co-worker and files a complaint. Give me a picture. I wanna see 
what these numbers are actually telling us.
    Open it up.
    Mr. Grant. If you don't mind, Mr. Currie, I will take the 
first stab at answering that.
    Thank you very much for the question. As you noted earlier 
in your opening statement, sir, less than 2 percent, about a 
little over 1 percent of our staff have been alleged to have 
this kind of misconduct. As I mentioned----
    Mr. Correa. So less than 1 percent are complaining?
    Mr. Grant. No. Less than 2 percent of the folks have had a 
complaint. But we have gone----
    Mr. Correa. Lodged against them?
    Mr. Grant [continuing]. Yes.
    Mr. Correa. OK.
    Mr. Grant. Then we have gone back and looked at what, what 
I call, how it has been adjudicated. That turns out to be 
slightly less than 50 percent of those that have been alleged 
actually----
    Mr. Correa. So about 2 percent and then about 1 percent are 
actually substantiated?
    Mr. Grant. A little less than 1 percent.
    Mr. Correa. Less than 1 percent. OK.
    Mr. Grant. So I want to make two points. No. 1, I am 
actually encouraged by a number of complaints because I think 
that sends the message that employees feel safe and free to 
lodge a complaint. I don't want employees to feel as though 
they are inhibited from lodging a complaint or a question. I 
want them to feel free to go to management, to the----
    Mr. Correa. What did you do? Create an 800 anonymous number 
or what----
    Mr. Grant. Yes. We actually do. One of the questions I had 
in preparing for this hearing was how do employees--I wanted to 
validate and look at it myself--how do employees lodge such a 
complaint? We have that as an icon on our chief security 
officer web page.
    I asked for it to be moved to the front page of the FEMA 
intranet site. I want every employee to have access to that.
    We also have annual training, such as the No FEAR Act, 
where every employee is made aware that they can contact the 
DHS I.G. hotline directly or contact labor relations or contact 
their supervisor or contact the chief security officer.
    So we want the complaint to come in. We want to follow the 
process to adjudicate it. We hope that they are not 
substantiated. But when they are, then we want to follow a 
consistent, quick process to take care of the problem and to 
issue discipline as required.
    Mr. Correa. So again, the pattern has been complaints going 
up or down or steady?
    Mr. Grant. I would say they have been fairly steady. It 
depends on the kind of system. Kind of----
    Mr. Correa. So would you say that based on your new policy 
of encouraging folks to come forward, the actual number of 
complaints has remained steady or again----
    Mr. Grant. Well again, that is just recent, in preparation 
for this hearing, that we moved it to the front page. So I 
would expect, again, the number of complaints coming in doesn't 
concern me as much as those that are substantiated. What we 
have seen is about two-thirds or three-quarters of 1 percent of 
our population would have a substantiated issue against them.
    Those are the issues. As I said in my opening statement, 
one issue of substantiated misconduct is one too many. We don't 
like that. We don't tolerate it.
    As you indicated in your statement, that causes a morale 
issue because if I am sitting next to someone who I think is 
getting away with something like that, that could be an issue. 
I don't want people thinking about that.
    As the Chairman said in his opening statement, when we are 
out in the field, these are stressful times. These are 
communities. These are survivors who are having potentially the 
worst day of their life. They wanna know that they have the 
full focus and attention of our staff.
    As I said in my opening statement, the vast majority of our 
employees serve honorably and with distinction in very 
difficult circumstances, with a lot of tension. They handle it 
well.
    In those cases that do happen, we wanna handle it 
consistently. We wanna handle it quickly. We want to remove 
those individuals or put them in a place where they can be 
educated better and understand that what they just did is not 
tolerated. Then we will bring them back in.
    Mr. Correa. Mr. Chair, I yield.
    Mr. Estes. Thank you, Mr. Correa.
    I would now like to call on Miss Rice for 5 minutes.
    Miss Rice. I think this administration has made it very 
clear through hiring freezes, reductions to employee retirement 
programs, and just overall budget cuts, that the Federal worker 
is just simply not a priority for this administration. So we 
can talk about morale all we want, but when the Government that 
you work for doesn't support you, I can't imagine a worse 
situation in terms of morale.
    So to what extent does the administration's clear attempt 
to shrink the work force, the Federal worker work force, what 
does that have on their ability to do their job, No. 1 and the 
morale of the agency overall? That is for both of you.
    Mr. Currie. Well, ma'am, at GAO we have not analyzed the 
recent efforts to try to reduce or streamline the Federal work 
force. But I can say this.
    In terms of Department of Homeland Security and FEMA, and 
all agencies across Government, you know everybody in 
Government, all departments are operating under the same 
environment and have been for a long time. We assess employee 
morale and engagement using several different factors and 
criteria.
    What we have seen is that agencies that have high-morale 
exercise certain behaviors that lead to that morale being 
higher than other agencies. So in FEMA's case, as the Chairman 
noted in opening up, they have tended to be lower on that side 
of thing, as have most of the DHS components.
    Mr. Grant. Ma'am, thank you for the question. One of the 
things--I have been acting in this job since January 20. Mr. 
Bob Fenton was the previous acting administrator. Mr. Long is 
now on board.
    One of the things that Mr. Fenton and I did, and now Mr. 
Long and I have done, is we have conducted four agency-wide 
town hall meetings in the 6 months that I have been in this 
job. That is more than we did in the previous year or two.
    Mr. Long has also initiated a plan to have, what he calls 
listening sessions in the next 8 weeks, with both our employees 
and our constituents that we work with.
    One of his intentions, one of Mr. Fenton's intentions and 
my own, was to reach out and talk to employees and the folks 
that we serve and find out what are we doing well. We wanna 
replicate that. Where do we need to improve, and we want to 
work on that. But we wanna hear it from the ground up and we 
wanna hear it from those that we serve.
    So that is an initiative that we have undertaken for the 
last several months and we will continue to undertake. I think 
that is terribly important.
    As Mr. Currie indicated, I think that engagement will help. 
One of the factors that Mr. Long has clearly articulated in the 
month, maybe just under a month he has been here, is that he 
expects leadership to get out from behind the desk and to go 
out and meet with the folks.
    I myself have walked Mr. Long through the entire building. 
We will walk up, talk to employees wherever they are, 7 o'clock 
in the morning to 7 o'clock at night and find out how they are 
doing and what could we do to help them. Because, quite 
frankly, the work of the agency is done by those folks, not 
honestly by us.
    Those are the folks that are going out and meeting with the 
survivors and ensuring that our mission is being met. We have 
initiated a significant increase in our communication and 
engagement. We hope in the long run that will help drive those 
employee morale scores up.
    Miss Rice. So FEMA also took a beating in the aftermath of 
Katrina and Superstorm Sandy. Certainly, you know, I have been 
in this position for 3 years, since I was the D.A. of my county 
when Superstorm Sandy happened. One of the biggest issues we 
still face is people trying to recover from that.
    The problem with the program there had really nothing to do 
with any of the FEMA employees. It had to do with the flood 
insurance program and how it was administered. There is going 
to be a major overhaul, we hope, in the future on that program, 
at least.
    So to what extent does that have an effect on the morale? 
Which, you know, what FEMA did in those two instances was 
really--the workers, how quickly they responded and how much 
they helped people in the immediate aftermath of these 
tragedies, No. 1.
    Because if you look at, you know, the overall number of, 
what is it, 248 complaints annually related to alleged 
misconduct by FEMA personnel, it reflects less than 2 percent 
of the entire FEMA work force, which I would think it is 
probably low, on the low end for, at least, a lot of Federal 
agencies. They just seem to be the ones to get beat up all the 
time.
    So, you know, to what extent does that have to do----
    Mr. Grant. Well, I think one of the issues, I think you are 
correct. When you are an agency like FEMA, generally speaking 
you are not in the press until a bad day happens. When that bad 
day happens, it is a stressful situation for the communities, 
the localities, the public entities, but most importantly for 
the private citizens that we serve.
    These are difficult times and our employees do work 
terribly hard, sometimes 18-, 20-hour days in very difficult 
situations where they themselves are often, you know, sleeping 
on a cot in a tent to make sure that they can do their job. So 
it is stressful.
    But actually during those periods, our morale goes up 
because our people want to help. We have a first mentality 
responder, a first responder mentality within our organization. 
Frankly, the busier we are, the higher the morale goes.
    Mr. Currie. Can I mention, I would agree with that. I think 
the issues of morale at FEMA are not related to the mission. I 
think everyone there has bought into the mission and are there 
because of the mission.
    I think that where morale becomes a problem, and this 
happens across DHS components, we have talked about this a lot 
at TSA and CBP and constantly being in the public limelight. 
The morale issues tend to creep in with leadership and 
supervision and how connected and trusting folks feel and 
supported they feel by their leadership.
    So the actions that Mr. Grant talked about that he and the 
new administrator are taking, town halls trying to connect with 
officials, trying to make employees a priority, just as much of 
a priority as the mission and not separate because they are not 
separate, I think are great steps.
    Miss Rice. Well, I agree with you----
    Mr. Estes. All right.
    Miss Rice. I agree you, but I think it all--you say morale 
all comes from the top. If the President of the United States 
is not putting an emphasis on----
    Mr. Estes. Thank you for the comments.
    Miss Rice [continuing]. Protecting Federal workers----
    Mr. Estes. But----
    Miss Rice. Oh, I am sorry. I was----
    Mr. Estes [continuing]. The time has expired. Time has 
expired. Thank you for your comments.
    Miss Rice. You have got to be kidding me.
    Mr. Estes. I would like to call on Ranking Member Correa.
    Mr. Correa. Thank you, Mr. Chair. I would like ask 
unanimous consent to have Ms. Jackson Lee participate in the 
hearing?
    Mr. Estes. Without objection, so ordered.
    Ms. Jackson Lee. I thank the Chairman for his courtesies, 
and I thank the Ranking Member for his leadership, and I thank 
Miss Rice for a very consistent and thoughtful line of 
questioning. I think she may have gotten her insight from being 
one of the areas that experienced Hurricane Sandy and obviously 
engaged a lot with FEMA staff.
    Making a very viable point that, if I may use the 
terminology, commander-in-chief sets the tone all over the 
Nation and really all over the world on how our Federal 
employees are treated, including in the last 24 hours how the 
United States military is treated.
    So this hearing is a very vital hearing because if we as 
Members of Congress can be helpful, I think it is important 
that we do so. That we do what is constructive and not do what 
undermines, I think, a very able work force.
    Now let me personally thank the entire FEMA work force and 
emphasize that I believe they comply with the DHS mission with 
honor and integrity. We will safeguard the American people, our 
homeland, and our values.
    Let me say that I am a, how should I say, beneficiary of 
FEMA's good works. I am a hurricane victim. I might not use 
that term in such that I ask for sympathy, but I have been 
through any number of hurricanes and storms.
    If the Chairman and the Ranking Member would allow me, when 
my daughter was 3 years old, in essence we had to ship her off 
to her grandparents because we were displaced for 6 weeks in 
what we call Storm Allison some many years ago. The Texas 
Medical Center's major research was eliminated in a terrible 
disaster during that storm.
    Then successive storms from Rita to Katrina to Hurricane 
Ike, we have all been impacted in Houston and my constituents. 
I say this to say because I want to applaud the FEMA workers. I 
know that there was a great episode with Hurricane Katrina with 
the leadership, but I can tell you that the FEMA workers were 
on the ground working to try and overcome what the National 
image was.
    Visiting with my colleague, Congresswoman Sewell right 
after her election, with the terrible tornadoes in Alabama, I 
saw FEMA workers on the ground.
    So to the FEMA workers, including the reservists, let me 
thank you very much from a personal perspective. Maybe that is 
what we should be doing is ensuring that they understand the 
value that they serve for the American people.
    They are there before others are there, and they are there 
after others have gone. So I particularly want to acknowledge 
your leadership that I have worked with in Washington and that 
on the ground.
    I want to take note of the reservists because I think we 
should understand that the reservists come in and come out. 
That is a tough life. So I am going to ask a line of 
questioning.
    I also want to thank Ms. Simon and the president of the 
AFGE, dear friends of mine. I don't mind saying it. I 
apologize. I have to step out to another meeting, but you 
already have me on record as being a chauvinist, if I may use 
that term, and advocate for all of you.
    Now, let me quickly try to in the minutes I have left, to 
be able to ask a question about follow-up. I want to know, once 
an allegation of misconduct is made against a FEMA employee, 
what recourse does the employee have then to refute the 
allegation or appeal?
    Then both of you can answer it, and maybe it should be you, 
Mr. Grant?
    Then FEMA uses three separate offices as well as an 
administrative investigations committee to handle allegations 
of employee misconduct, which appear to average less than 300 
cases per year.
    Does FEMA need to adjust or improve how employee misconduct 
is managed at the agency? That may be part of morale. There is 
no seamless way to--for these employees to respond. I want to 
know what kind of added benefits do you give?
    This is tough work. So morale goes about what incentives or 
benefits that you give to make sure that they are, in fact, 
rewarded for this very tough work. Because it is not--to the 
Chairman and Ranking Member, it is not money. So if you can ask 
that and the Chairman would indulge me for them to give their 
answer, I would greatly appreciate it.
    I just want to be on the record that the U.S. Congress in 
particular, this Member from hurricane country, greatly 
appreciates the work that FEMA offices and FEMA staff does. Any 
misconduct should be corrected, but the work should be 
applauded. Would you answer those two questions please?
    Mr. Grant. Yes, ma'am, I will do my best to do so. The 
first is that I believe GAO did note that we have a practice in 
place that is consistently followed to review and adjudicate 
each of the allegations that come up. Where we do not have 
adequate procedures in place is at the system level to make 
sure that they are captured in a unique system.
    So what we have done is have a manual process where each of 
those three groups you mentioned, Chief Counsel, Chief Security 
Officer, and Chief Human Capital Officer, meaning labor 
relations, will meet weekly to ensure that issues do not fall 
between the cracks. Unfortunately, that has occurred at times.
    As I indicated earlier, we are working with our partners at 
the I.G. to adapt their system and deploy it across our 
enterprise as a singular sort of parent or umbrella system to 
ensure that we have current, accurate, and complete records for 
all cases with common nomenclature, common case management 
numbers, et cetera.
    We believe that will allow us to do the trend analysis that 
Mr. Correa asked about earlier in a more effective manner. So I 
believe that answers most of your questions.
    Ms. Jackson Lee. The refuting. How does an employee refute?
    Mr. Grant. Oh. At any time that an allegation is made 
against an employee, they are advised that they have the 
opportunity to meet with the investigation organization and 
refute that, provide whatever information they deem necessary. 
They are advised of their appeal rights should the decision go 
contrary to their belief.
    Mr. Estes. Thank you. Thank you for your answers----
    Ms. Jackson Lee. Through AFGE?
    Mr. Perry. Time has expired now.
    Ms. Jackson Lee. Thank you, Mr. Chairman. If I could just 
put this on the record for an answer in writing, I would like 
to know how you work with AFGE for those employees that have 
that relationship with them?
    Mr. Grant. Yes, ma'am.
    Ms. Jackson Lee. I would like that writing.
    Thank you, Mr. Chairman. Thank you to the Ranking Member.
    Mr. Estes. Thank you.
    Ms. Jackson Lee. I yield back.
    Mr. Estes. Now, I recognize Mr. Higgins for 5 minutes of 
questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Gentlemen, thank you for appearing before the subcommittee, 
and thank you for your service to our Nation.
    Mr. Currie, my question is for you. How do FEMA's 
misconduct policies and procedures reflect best practices or 
internal control standards to ensure an efficient and effective 
organization?
    Specifically, while you reflect upon that, please give us 
some insight as to why did FEMA not properly investigate 
certain cases referred by the Department of Homeland Security's 
Office of Inspector General? What was the effect of this delay?
    So give us some insight, please, to your policies.
    Mr. Currie. Yes, sir. I think you used the perfect wording 
which is internal controls. I think that is the biggest problem 
we found in this process. Mr. Grant has talked about three 
separate systems collecting information on misconduct.
    When I say systems, don't think about I.T. systems. We are 
talking about spreadsheets here, manual spreadsheets and then a 
physical adjudication process to discuss those.
    So frankly, the data we presented in our report, we 
presented to give a sense of what we knew about misconduct 
cases, but it was not reliable, which is why we had several 
findings and recommendations to strengthen the data.
    So I am not inferring that it was understated or 
overstated. We just don't feel good about the data. I am not 
sure if that was comprehensive or not. So the controls are 
critical. If you don't have a system to track it and monitor 
it, then you have no idea whether you are following up.
    The other part of that is, the process of the complaint 
coming in and the adjudication and disciplinary action are 
separate and those don't track through the process.
    So we couldn't go back and find out if there was 
disciplinary action taken in all allegations or not and why, 
because the system was, the data was just kind of a mess.
    The I.G. issue, it is the same issue. This is not just an 
issue for FEMA. Other DHS components, TSA and CBP, we found 
similar issues. They are supposed to communicate constantly 
with the I.G. Some of these components are getting thousands of 
cases. So there just has to be a better system to automatically 
communicate and track the cases between the I.G. and the 
component.
    I think the burden is really on the component to make sure 
they are not missing the cases because the I.G. gets, you know, 
15,000 to 20,000 cases a year.
    Mr. Higgins. So you are saying that it is very difficult 
for you to track whether or not disciplinary action has been 
taken at some other stage within the agency or within some----
    Mr. Currie. Well, we have----
    Mr. Higgins [continuing]. Some context of the agency?
    Mr. Currie. FEMA provided us data on the number of 
disciplinary actions it took and what those actions were. What 
we couldn't do is track them to each case all throughout the 
process from allegation to investigation to adjudication and 
disciplinary action because the systems were just different.
    Mr. Higgins. Are case files not created on each individual 
investigation into misconduct within the Department of Homeland 
Security?
    Mr. Currie. Case files are created, but mostly manually and 
inputted into a system. But----
    Mr. Higgins. Do telephones not get answered from one 
supervisor to another or from the director to a supervisor? Is 
there----
    Mr. Currie. Well, there----
    Mr. Higgins. Can people--are people not allowed to talk to 
each other?
    Mr. Currie. Absolutely. FEMA has a process for handling 
these cases and what supervisors and employees are supposed to 
do, as Mr. Grant said. It is just, you know, that may not 
always happen.
    Mr. Higgins. Mr. Grant, do you have something to add there, 
sir?
    Mr. Grant. Yes, sir. I think of the six recommendations 
that Mr. Currie in his report indicated or provided us, we 
agree with them all. We do do case management. We identify each 
case. We track it through the system.
    We do not have a singular system, as I indicated earlier, 
in place that would allow a unique case identifier number. Each 
of those three systems have different nomenclatures, and that 
is why we have to meet manually each week to make sure that 
each office is on the same page.
    It is inefficient. It allows for opportunity for mistakes 
to be made. That is why we are adopting, as I mentioned 
earlier, the Department of Homeland Security's inspector 
general has a system.
    We are testing that system in our environment right now. We 
are going to pilot it in our Chief Security Office. That is the 
office that most closely interacts with the inspector general. 
That will ensure that we are using the same nomenclature, the 
same case numbering they have.
    Once we establish that in our architecture and it works, we 
will then deploy it across FEMA. So all of the offices involved 
in this process will be using the same parent system. I believe 
that will take care of many of the issues raised by GAO.
    Mr. Higgins. Thank you, gentlemen. It appears that the 
creation of a solid case file with an identifying number that 
would gradually build upon itself with supplemental reports as 
cases of misconduct are investigated, could be quite beneficial 
to the efficiency of your procedure.
    Mr. Chairman, I yield back.
    Mr. Estes. Thank you, Mr. Higgins.
    Now the Chair would like to thank the witnesses for their 
valuable testimony and the Members for their questions. The 
first panel is now excused. The clerk will prepare the witness 
table for the next panel. Thank you very much.
    [Recess.]
    Mr. Estes. The Chair will now introduce our witness for the 
second panel. Ms. Jacqueline Simon is director for the Public 
Policy Department at the American Federation of Government 
Employees, AFGE. AFGE is the largest Federal employee union, 
representing 700,000 Federal and D.C. government workers.
    AFGE provides its members with legal representation, 
legislative advocacy, technical expertise, and informational 
services. Thank you for being here today.
    Now the Chair recognizes Ms. Simon for an opening 
statement.

  STATEMENT OF JACQUELINE SIMON, DIRECTOR OF POLICY, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Ms. Simon. Mr. Chairman, Ranking Member Correa and Members 
of the subcommittee, thank you for the opportunity to testify 
today. GAO's report takes pains to explain the numerous 
distinct types of employment tenure at FEMA.
    First are Title 5 employees, who are both permanent and 
temporary workers hired only after a rigorous and competitive 
merit-based examination process, one that includes the 
application of veterans' preference.
    FEMA employees who are covered by Title 5 are afforded full 
civil service protections and where the workers have voted to 
form a union are covered by a collective bargaining agreement 
as well.
    Stafford Act employees, on the other hand, are hired only 
for temporary or term appointments. They do not undergo 
rigorous vetting through competitive examination. They are 
employed at-will, and they may be terminated at any time for 
any reason or no reason and have no rights of appeal and no due 
process protections.
    FEMA also employs surge capacity force volunteers who are 
otherwise employed by the Department of Homeland Security. They 
are deployed in the case of catastrophic disaster.
    Finally there is the FEMA Corps National service program, 
whose members are fewer than 500 and are part of the AmeriCorps 
program.
    These distinctions matter. Under Title 5, employees are 
subject to well-defined disciplinary procedures and penalties, 
and they have the right to appeal adverse actions, either 
through grievance and arbitration procedures in their 
collective bargaining agreements, where applicable, or through 
access to the MSPB.
    FEMA Corps members have a disciplinary process that is 
determined by the AmeriCorps program. Surge capacity force 
volunteers have no documented misconduct policies and are 
presumed to be referred back to their home component for 
action.
    Stafford Act employees, reservist and CORE employees, make 
up a second-class work force at FEMA. They are described by GAO 
as having poorly-defined or nonexistent disciplinary processes 
and no rights of appeal for adverse actions.
    It is the lack of policy or procedures to address 
misconduct and appeal rights for this segment of FEMA's work 
force that makes up the heart of GAO's report.
    Let's start with the numbers. The average annual number of 
employee misconduct complaints for 2016 amounted to less than 2 
percent of all employees. Of the complaints filed within the 3-
year period under examination, the agency's actions were 
decisive--65 percent of the accused were terminated, 21 percent 
received reprimands, and 12 percent received suspensions.
    This appears to me to be a system at work. Allegations were 
investigated and the agency responded. Importantly, about 12 
percent of those investigated were found innocent. We must 
remember that these innocents are why we have due process.
    The result of GAO's efforts to research and report the 
policies in place to handle allegations of misconduct among 
FEMA workers is the realization that no consistent process 
exists at all for anyone other than Title 5 employees.
    If there is a problem with investigating misconduct at 
FEMA, AFGE believes that the reason is the overabundance of at-
will employees. These workers have not been hired 
competitively. Their background, skills, and qualifications 
have not been rigorously tested, and it seems as though they 
receive neither adequate training nor adequate supervision.
    Most important from the standpoint of the concerns about 
integrity addressed in the GAO report, because they lack 
protection of a union contract and the right to appeal adverse 
actions such as suspensions and terminations, their 
whistleblower protections are entirely pro forma and thus 
ineffective.
    Corruption is an ever-present danger when the Government is 
providing assistance after a disaster. There are cash 
transfers, direct provision of goods and services, and 
procurement decisions that all present risk.
    For those who either don't have clear policy and 
supervision or are vulnerable to pressure from corrupt 
supervisors or managers to engage in misappropriation, there is 
danger of being charged with inappropriate behavior.
    FEMA is therefore the last agency that should ever be 
staffed by an at-will work force with no collective bargaining 
rights and no avenue of appeal for adverse action by managers. 
There should be no surprise that there are allegations of 
impropriety in a work force that is so much at the mercy of 
managers.
    If this subcommittee is truly interested in providing the 
public with well-trained, qualified, and accountable emergency 
workers, the the current practice of hiring reservist and CORE 
employees at-will should end. Rather the entire emergency work 
force at FEMA should be hired under Title 5 authorities.
    This will ensure they are properly vetted, trained, and 
disciplined and protect the public from potential financial or 
political corruption.
    This concludes my statement, and I will be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Simon follows:]
                 Prepared Statement of Jacqueline Simon
                             July 27, 2017
    Mr. Chairman, Ranking Member Correa, and Members of the 
subcommittee: My name is Jacqueline Simon and I am the policy director 
of the American Federation of Government Employees, AFL-CIO (AFGE). On 
behalf of the almost 700,000 Federal and District of Columbia employees 
AFGE is proud to represent, I thank you for the opportunity to testify 
today on the Government Accountability Office (GAO) report which is at 
the center of this hearing.
    GAO's report takes pains to explain the numerous, distinct types of 
employment tenure that exist among the work force at the Federal 
Emergency Management Agency (FEMA). Most title 5 employees constitute 
the permanent and temporary work force and are usually hired only after 
a rigorous and competitive merit-based examination process (one that 
includes applications of veterans preference). FEMA employees who are 
covered by Title 5 are afforded full civil service protections and 
where the workers have voted to form a union, are covered by a 
collective bargaining agreement as well. Stafford Act employees, on the 
other hand, are hired for temporary or term appointments. They do not 
undergo rigorous vetting through competitive examination, are employed 
``at will,'' and may be terminated at any time for any reason or no 
reason and have no rights of appeal, and no due process protections. 
FEMA also employs Surge Capacity Force volunteers who are otherwise 
employed by the Department of Homeland Security; they are deployed in 
the case of catastrophic disaster. Thus far, the only time this 
volunteer force has been used was during the response to Hurricane 
Sandy in 2012. Finally, there is the FEMA Corps National service 
program, whose members are fewer than 500 and are part of the 
AmeriCorps program.
    These distinctions matter. Under Title 5, employees are subject to 
well-defined disciplinary procedures, penalties, and have the right to 
appeal adverse actions either through grievance and arbitration 
procedures in their collective bargaining agreements (where applicable) 
or through access to the Merit Systems Protection Board (MSPB). FEMA 
Corps members have a disciplinary process that is determined by the 
AmeriCorps program. Surge Capacity Force volunteers have no documented 
misconduct policies and are presumed to be referred back to their 
``home component'' for action.
    Stafford Act employees--Reservists and CORE employees--make up a 
second-class work force at FEMA. They are described by GAO as having 
poorly-defined or non-existent disciplinary processes and no rights of 
appeal for adverse actions. It is the lack of policy or procedures to 
address misconduct and appeal rights for this segment of FEMA's work 
force that makes up the heart of this report.
    Let's start with the numbers. The average annual number of employee 
misconduct complaints for 2016 amounted to less than 2 percent of the 
all employees. Not to belittle any instance of alleged misconduct, but 
2 percent hardly constitutes an epidemic of bad behavior within the 
agency. Next, of the complaints filed within a 3-year period (January 
2014 to December 2016), the agency's actions were decisive: 65 percent 
of the accused were terminated, 21 percent received reprimands, and 12 
percent received suspensions of less than 2 weeks' duration. This 
appears to me to be a system at work. Allegations were investigated and 
the agency responded.
    The result of the GAO's efforts to research and report on the 
policies in place to handle allegations of misconduct among FEMA 
workers is the realization that no consistent process exists at all for 
anyone other than Title 5 employees. And there is a need for better 
record-keeping.
    The report recommends instituting clearly documented policies and 
procedures to address misconduct among Surge Capacity Force volunteers 
and Reservists. This is certainly not controversial.
    If there is a problem with investigating misconduct at FEMA, AFGE 
believes that the reason is the overabundance of ``at-will'' employees. 
These workers have not been hired competitively. Their backgrounds, 
skills, and qualifications have not been rigorously tested. And it 
seems as though they receive neither adequate training nor adequate 
supervision. Most important from the standpoint of the concerns about 
integrity addressed in the GAO report, because they lack the protection 
of a union contract and the right to appeal adverse actions such 
suspensions and terminations, their ``whistleblower'' protections are 
entirely pro forma and thus ineffective.
    Corruption is an ever-present danger when the Government is 
providing assistance after a disaster. There are cash transfers, direct 
provision of goods and services, and procurement decisions that are all 
occasions for those who either don't have clear policy and supervision, 
or are vulnerable to pressure from corrupt supervisors or managers to 
engage in misappropriation. FEMA is the last agency that should be 
staffed by an at-will work force with no collective bargaining rights 
and no avenue of appeal for adverse actions by managers. There should 
be no surprise that there are allegations of impropriety among a work 
force that is so much at the mercy of managers.
    If this subcommittee is truly interested in providing the public 
with well-trained, qualified, and accountable emergency workers, then 
the current practice of hiring Reservists and CORE employees ``at 
will'' should end. Rather the entire emergency work force at FEMA 
should be hired under Title 5 authorities. This will ensure they are 
properly vetted, trained, and disciplined, and protect the public from 
potential financial or political corruption.

    Mr. Estes. Thank you, Ms. Simon. Now the Chair recognizes 
himself for 5 minutes of questioning. I mean, do you believe 
that having the documented misconduct policies and procedures 
for all FEMA work force categories would help improve the 
perception that FEMA is being able to treat their cases 
adequately and equally?
    Ms. Simon. Yes, but when there is an at-will work force 
there is no need to use any procedures. People can just be 
fired for not toeing the line.
    Mr. Estes. But if we had--are you thinking that adequate or 
consistent policies couldn't address some of that, even if you 
had a policy for the at-will work force--hired under the 
Stafford Act versus other under Title 5?
    Ms. Simon. Well, the Government has access to a system that 
is demonstrably working. That is the systems that are described 
in Title 5. That is why I have argued that the procedures in 
Title 5 should be applied to the entire FEMA work force, 
particularly emergency workers.
    Not particularly necessarily, but to all workers, and that 
is the best protection for the public that is put in a 
situation involving an emergency.
    Mr. Estes. Part of my questions around that centers around, 
I mean, in my past life as State treasurer, I had both 
employees that were under the Classified as well as non-
Classified positions.
    I think we were able to effectively make that work for both 
classifications of employees, even though there were actually 
technically some different criteria in how you worked with 
them. But, you know, having good management practices seemed to 
address some of those things.
    Ms. Simon. Well, of course, if you don't have--where 
management is not corrupt you don't have this problem. But what 
our responsibility is to protect the public from the potential 
of corruption.
    Mr. Estes. Another question is, I mean, FEMA recently has 
been using the comparators spreadsheet to determine the range 
of disciplinary actions and table of offenses. Due to some of 
the personal information maintained on that, only certain 
management were able to see that spreadsheet.
    Do you think it would be beneficial for the entire FEMA 
work force to have better transparency in terms of the range of 
offenses and penalties?
    Ms. Simon. Well, I think that this question of using the 
comparators as opposed to a table of penalties is complex and 
there are arguments on both sides. On the one hand, a table of 
penalties in theory provides consistency.
    But you raised the questions with privacy and, you know, 
having the comparators of what kinds of discipline have 
actually been applied in similar situations might in theory 
produce even more consistency than a table of penalties that 
gives you a range of possibilities.
    I think that is why there was a move from the table of 
penalties to the comparators. Personally, I come down on the 
side of the table of penalties.
    Mr. Estes. All right. Thank you.
    I would now like to recognize Ranking Member Correa for 5 
minutes of questioning.
    Mr. Correa. Thank you, Mr. Chair.
    Ms. Simon. first of all, welcome and thank you for being 
here. As I listened to my colleagues and their testimony, I am 
reminded that I am from southern California, Los Angeles, 
Orange County. Back in the early 1990's I was actually there to 
witness--I was part of that little earthquake that hit us and 
stopped cold about 10 million people.
    It was the first time in my life I actually thought I was 
gonna die. It was a horrific situation and the aftermath was 
quite something and seeing FEMA there. Again, I thank all of 
you for being there at our most critical moment in our life.
    The aftermath, all the stories of fake insurance companies 
coming in, people trying to make a buck off other people's 
disaster. The stories of corruption were countless.
    You remind me when you talk about risk of corruption, part-
time employees, I imagine that these at-will employees that we 
are talking about, are they employees that are essentially 
brought in when you have a surge? Is that what it is?
    Ms. Simon. Yes.
    Mr. Correa. What I am hearing you say, and I don't want to 
put any words in your mouth, is these are the folks that 
probably need to be at the front lines in terms of having the 
ability to blow the whistle when they see corruption happening 
at the grassroots level.
    Because it didn't do any of my neighbors and friends any 
good to figure out that they were actually being duped a month 
or two after their money had been taken away.
    So I guess trying to follow up with the Chairman's line of 
questioning with you is would you say then that you want to 
bring in these temporary employees under collective bargaining 
to give them the protection so they can call out the corruption 
that either management or outside of FEMA during these, you 
know, moments of crisis?
    Ms. Simon. Absolutely, yes. A strong collective bargaining 
agreement with protection against retaliation for blowing the 
whistle is the best protection the public can have to make sure 
that taxpayer dollars are being handled in a way that is 
consistent with the public good.
    We have data across the Government in every agency that 
shows the whistleblowers who come forward with the strongest 
protections are those covered by a collective bargaining 
agreement. As you describe, disasters, intense disasters where 
there is a lot of money floating around----
    Mr. Correa. Money and chaos.
    Ms. Simon. Money and chaos.
    Mr. Correa. And hurt and pain.
    Ms. Simon. That is a moment when you want to have the 
strongest possible protections, especially for the front-line 
employees, because it is inevitable that there will be pressure 
placed upon then by those who are in that chain of possession 
of the money and making decisions about distribution of the 
money.
    They need to be held to account. Those managers need to be 
held to account. If the front-line employees are completely 
subject to the whim of those who are supervising them, you have 
got a recipe for corruption.
    Mr. Correa. A follow-up question, I am very concerned with 
some of the testimony from the prior panel and you as well, 
this lack of trust at upper levels of management. Can you get 
any more specific? Because, again, FEMA in my opinion, you are 
front-line responders.
    Your mission is an important one. I think morale has to be 
the driving force. If you really love your job and your job is 
to go into very, very terrible places, and so why is it that 
you have lack of trust at the upper level and therefore low 
morale? How do you fix that?
    Ms. Simon. Well, I think there is a----
    Mr. Correa. Speculate please.
    Ms. Simon. It is hard. You know, I think that 
Representative Rice was certainly on to something when she 
discussed the attacks on the Federal work force. That certainly 
lowers morale, not only in the Department of Homeland Security 
and all its components, but across the Government.
    When it comes to lack of trust, you know, I don't want to 
have----
    Mr. Correa. Do you feel you are attacked as a work force?
    Ms. Simon. Certainly when it comes to the pay and benefits 
and the quality of their work with threats to dismantle 
programs and eliminate jobs, the questioning of the quality of 
Federal employees' work constantly. Yes, we very much feel 
under attack.
    I think we see that in the Federal employee viewpoint 
survey.
    Mr. Correa. Very quickly, how does that translate to lack 
of trust in upper management?
    Ms. Simon. Well, there are two sort-of streams of upper 
management: One is political appointees, another are career 
managers. When political appointees follow the Federal, you 
know, attack the Federal work force line, that is a problem.
    You know, I think that there has been a lot of rhetoric in 
this Congress about how we need to make it easier to fire a 
Federal employee. Federal employees are always presumed to be 
poor performers and somehow a drain on the taxpayer rather than 
providing valuable services to the American public.
    To the degree that, you know, managers continue to repeat 
that rather than to praise the good work that Federal employees 
do and express appreciation for how much they do with very, 
very modest compensation, you have got a problem.
    Mr. Correa. Mr. Chair, I yield back.
    Mr. Estes. Thank you, Ranking Member Correa.
    I would now like to call on Mr. Higgins for 5 minutes of 
questioning.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ms. Simon. thank you for appearing before this 
subcommittee, and thank you for your service to your Nation.
    Ms. Simon. Thank you.
    Mr. Higgins. Reading your testimony and listening to you 
speak, you are an intelligent and passionate representative for 
your cause, but is it your suggestion that the solution to the 
problems at FEMA, including during disaster response, be they 
man-made or natural, the solutions to the problems would be 
that 100 percent of the employees of FEMA, full-time and part-
time, should be union employees?
    Ms. Simon. Well, my testimony focused exclusively on the 
subject of the GAO report that was published last week, not 
the----
    Mr. Higgins. You suggested that----
    Ms. Simon [continuing]. Not the question of all of FEMA's 
problems.
    Mr. Higgins [continuing]. That the at-will employees, are 
they union employees?
    Ms. Simon. No, they are not.
    Mr. Higgins. You are----
    Ms. Simon. They are not covered by a collective bargaining 
agreement.
    Mr. Higgins [continuing]. You are suggesting that that they 
should be union employees. They should be better trained and 
under union control.
    Ms. Simon. They----
    Mr. Higgins. You specifically suggest that they need union 
protections regarding their employment status and so that they 
can be--their ``whistleblowing'' will be more effective.
    Ms. Simon. Absolutely. A union contract as well as the 
provisions of Title 5, civil service protection.
    Mr. Higgins. So respectfully I ask you, if we staffed FEMA 
with 100 percent response-capable employees at that level, that 
were union employees, what would they do when they were not 
responding to a disaster?
    Ms. Simon. Oh, the union can represent workers who are 
employed only in a surge capacity. The unions can certainly 
represent temporary employees and term employees. You don't 
have to be a full-time permanent employee in order to be 
covered by a collective bargaining agreement.
    Mr. Higgins. Intelligent response. I represent a south 
Louisiana district. In August of last year our citizens 
suffered what was referred to as epic flooding, 1,000-year 
flooding with 56 inches of rain in just a couple of days.
    The water management systems were overwhelmed. Rivers 
overflowed their levees, et cetera. Tens of thousands, scores 
of thousands of homes and businesses were flooded.
    May I respectfully suggest to you to consider the fact that 
during that flooding and immediate aftermath, before FEMA was 
on the ground, a volunteer staff of thousands and thousands of 
south Louisiana citizens, churches, volunteer groups, formed 
what was called a Cajun Navy and a supply chain.
    Tens of thousands of people were rescued from flooded homes 
and rooftops. Hundreds of tons or perhaps thousands of tons of 
food and clothing and shelter were distributed by volunteer 
staff before FEMA was on the ground. Those guys are not 
certainly union employees.
    So would you please clarify for this subcommittee the 
disparity of what I just described, an actual, effective, 
practical response by real American citizens working for 
themselves for free for their fellow citizen and had largely 
addressed the emergency status of the flooding before FEMA was 
on the ground?
    Ms. Simon. I think volunteerism is wonderful, and it is 
part of citizenship, and it is part of what any humane response 
would be to a disaster. So I am very glad that the people of 
your community were beneficiaries of volunteerism.
    Mr. Higgins. Well, thank you for your response, ma'am.
    Mr. Chairman, I yield the balance of my time.
    Mr. Perry [presiding.] The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from California, 
Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    I am still trying to make the connection on how the 
volunteers that came out ties into the GAO report which is what 
we are here to hear about, the how to improve the situation at 
FEMA.
    When Hurricane Katrina hit, I was one of those volunteers. 
I was a lawyer. I flew out to Biloxi, Mississippi to help 
people file their insurance claims.
    I did it because I had a certain skill that I think I could 
provide and wanted to just help. I think that is a very 
different situation than what I did in my full-time job or what 
anybody would do in their full-time job. So I am also grateful 
for the volunteers we have.
    But in this situation, I think we have employees who are 
working at FEMA and kind-of hearing your testimony today about 
why you believe that the at-will relationships provides, I 
guess, less protections and some hesitation, maybe, on the part 
of employees to come forward.
    As somebody who has actually served as an employment lawyer 
before, I can understand this first-hand. As an employee I can 
understand that as well when you are reluctant to kind-of come 
forward.
    I am interested in hearing a little bit more about if you 
have testimonials from employees maybe that were at-will who 
were hesitant to come forward because of that relationship? How 
it would have--they may have come forward because if they had 
some protection that they would have come forward?
    Ms. Simon. Well, thank you for the question. I don't have 
those kinds of testimonials and to my knowledge no one who is 
part of the at-will work force at FEMA has come to AFGE asking 
for assistance or advice.
    We do get people who are in our bargaining units come to us 
for legal advice and assistance when they are preparing to come 
forward as whistleblowers. We, you know, we advise them, 
especially in the context of retaliation, which happens more 
often than anybody would like to believe----
    Ms. Barragan. Yes.
    Ms. Simon [continuing]. In Federal agencies. But we never 
hear from--these are the people we never hear from. You know, 
they become part of the statistics on termination.
    Ms. Barragan. Right.
    Ms. Simon. We don't know. We never get the story and we 
never have an objective third party to hear the evidence----
    Ms. Barragan. OK.
    Ms. Simon [continuing]. That they would bring forward.
    Ms. Barragan. The reason I ask was my sister happens to be 
a Federal employee. She has actually come to me before with 
stories of people who are at-will and saying, you know, people 
want to come forward but they don't because they are concerned 
about it.
    I was just curious if you had heard any of those stories, 
because I certainly have heard some of those and understand 
what it means when you have those collective bargaining rights.
    Having come from a labor household all my life, I have seen 
first-hand what the difference could be when you are trying to 
make sure to report some misconduct or in this case you know, 
any issues of corruption that may be happening, especially 
during a time of crisis.
    Just to clarify, do you believe that the table of penalties 
would be beneficial to the FEMA work force?
    Ms. Simon. Before I answer that question, I would have to 
see a lot more information than what was provided in the GAO 
report. I, of course do not have access to the comparators. I 
think that, you know, the question of privacy was raised with 
regard to the comparators.
    The question becomes, you know, to what degree does 
management have discretion when there is a range of penalties 
that can be applied in a certain situation. I am not sure that 
the difference between the table of penalties and the 
comparator system is as enormous as it might be, you know, 
presumed to be.
    But, you know, the discretion and the range is where you 
get inconsistency. On the other hand, you know, just a cookbook 
that gives absolutely no opportunity for, you know, mitigation 
of penalties on the part of a supervisor to say, well, you 
know, there were circumstances that justify a less harsh 
penalty or, you know, the harshest penalty.
    There is an argument to be made for the discretion, too, 
but I haven't seen enough data to really give a good answer.
    Ms. Barragan. OK. Thank you.
    I yield back.
    Mr. Perry. The Chair thanks the gentlelady.
    Mr. Simon, I regret and I apologize for not being here for 
your testimony. That having been said, I just have a couple 
questions for you, and I am hoping maybe they are germane to 
what you know as opposed to the other witnesses.
    According to GAO's report, OSCO, or the Office of Chief of 
Security has not established an effective procedure to ensure 
all cases referred to FEMA by DHS OIG are accounted for and 
subsequently reviewed and addressed. Indeed, according to the 
report there were some that were referred and then sent back 
and then never adjudicated.
    What is the effect on the employee population, if you know 
from your experience, when these things go unaddressed, is the 
best way to ask it? I mean, I guess. I mean, is there--does 
anybody care? Is there an effect?
    Because in my mind somebody probably either was wrongly 
accused or wrongly got away with something, for lack of a 
better way to put it. I imagine in any organization that has an 
effect, but I just want to hear your thoughts on that?
    Ms. Simon. Of course, I mean, I don't know anything about 
specific cases. I can just speak generally to the question. Of 
course, you know, everyone wants a Federal Government that is 
run with the highest standards of integrity. No one wants to 
tolerate corruption.
    No one likes to see a manager or a low-level employee get 
away with something that he or she should not get away with and 
go unpunished. No one likes to see inconsistency.
    So when there are cases that are not dealt with that are, 
you know, swept under the carpet, of course, nobody is happy 
about that. But I don't have any actual knowledge of specific 
cases.
    Mr. Perry. Do you think, do you view it--do employees view 
it as corruption, incompetence, a broken system, too many 
things going? Do you know how--well, how do people view that?
    Ms. Simon. I can't really give you a clear answer because 
the range of allegations is so broad. You know, allegations can 
be lodged in all kinds of situations. Sometimes there is a 
personality conflict. Sometimes, you know, sometimes there is 
smoke sometimes and no fire and sometimes there really is an 
issue.
    So that is why it is so important, as I testified, to have 
a procedure where an objective third party weighs evidence. We 
don't have that for the reservist and CORE work force. There 
they can simply be terminated with no consideration of 
evidence.
    Mr. Perry. Well, we are concerned on both sides of the 
equation. We don't want people falsely accused, however, we 
don't want things to go unadjudicated for the sake of the 
taxpayer, for the sake of the employees, for the sake of the 
agency and its reputation. All those things are important, and 
I appreciate your insight.
    Out of a curiosity that came to my mind during the previous 
testimony and I didn't get to ask those folks, so I am gonna 
ask you if you know? The volunteers, and I guess that is the 
reserve force, right, that comes into place when there is a 
disaster?
    They come from other agencies of their own volition but 
they cannot be disciplined by FEMA if they are found to have 
done something incongruent with the codes of conduct and 
standards, et cetera.
    I am wondering if that has to do with an administrative 
process, if you know? Or if that has to do with a collective 
bargaining agreement that this employee might have with his 
normal employer or her normal employer as opposed to the time 
they are at FEMA?
    From my standpoint as a military officer, when I would get 
a soldier or a service member from another organization to work 
in my organization, there was a status for that individual that 
I knew or the unit that I knew either had tactical control so I 
could order them to go do whatever I needed to do and their 
owning or parent unit provided their logistics and their UCMJ, 
the Code of Military Justice whatever, or they were what we 
would call operational control.
    I own them for the period of time. I write their 
evaluation. I order them. I feed them. I clothe them. I 
adjudicate, you know, if there is a problem.
    So I am just wondering if, if you know, if this is an 
administrative oversight or if there is a rationale or a 
problem or a roadblock that has to do with collective 
bargaining, multiple bargaining agreements or what have you. Do 
you know?
    Ms. Simon. Well, two things. I am not 100 percent certain, 
but my recollection reading the GAO report, that segment of the 
work force didn't have any kind of allegations of impropriety 
or misconduct that had been adjudicated.
    There were no--but the answer to your question is no, that 
it is not the collective bargaining agreement, not at all. They 
were, you know, sort-of on loan. This work force is on loan to 
FEMA from other components, mostly of DHS. They are referred 
back to their employing agency.
    It is up to the agency. Remember, discipline is a 
management responsibility. So if the employing agency doesn't 
follow through and investigate and ultimately discipline, that 
is not the fault of the collective bargaining agreement. That 
is a management failure.
    Mr. Perry. Well, I would agree with you unless there is 
something that inhibits----
    Ms. Simon. No.
    Mr. Perry [continuing]. The management from----
    Ms. Simon. Absolutely not.
    Mr. Perry [continuing]. From taking action. I am well past 
my time here, but I appreciate your input.
    I think from an editorial standpoint I think it would be 
hard as a manager to be able to exact discipline on somebody 
that I didn't have jurisdiction over that could go back to 
their parent agency, for lack of a better term, and claim 
ignorance or what have you. Then that agency doesn't take any 
action.
    But I----
    Ms. Simon. Well----
    Mr. Perry [continuing]. I also accept, and because I don't 
know whether these individuals had been involved in any of the 
infractions. It is great if they haven't.
    Ms. Simon. I think not.
    Mr. Perry. But even so, I think it is important that there 
is a system in place for instances because even though they are 
volunteers and we appreciate their service and taking time away 
from what they do, they are representing FEMA at a critical 
time when all eyes are on FEMA.
    So we must be ensured of their integrity and their work 
ethic and everything that goes with that.
    Ms. Simon. I agree with you. I think it probably should be 
a--FEMA should have the opportunity to handle these issues.
    Mr. Perry. I appreciate you being here. Thank you very 
much.
    The Chair thanks you, Ms. Simon, and all the witnesses for 
their very valuable testimony and the Members for their 
questions. Members may have some additional questions for the 
witness, and we will ask you to respond as witnesses in 
writing. Pursuant to committee rule VII(D), the hearing record 
will remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:23 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
